                                                                                                     Vol. 79                           Friday,
                                                                                                     No. 90                            May 9, 2014




                                                                                                     Part II


                                                                                                     Department of Health and Human Services
                                                                                                     Office of Inspector General
                                                                                                     42 CFR Parts 1000, 1001, 1002, et al.
                                                                                                     Medicare and State Health Care Programs: Fraud and Abuse; Revisions to
                                                                                                     the Office of Inspector General’s Exclusion Authorities; Proposed Rule
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00001   Fmt 4717   Sfmt 4717   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26810                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                DEPARTMENT OF HEALTH AND                                Because access to the interior of the                 1396a(p), 1396a(a)(39), 1396a(a)(41),
                                                HUMAN SERVICES                                          Cohen Building is not readily available               and 1396b(i)(2).
                                                                                                        to persons without Federal Government                   1006: 42 U.S.C. 405(d), 405(e), 1302,
                                                Office of Inspector General                             identification, commenters are                        1320a–7, and 1320a–7a.
                                                                                                        encouraged to schedule their delivery                 II. Summary of Major Provisions
                                                42 CFR Parts 1000, 1001, 1002, and                      with one of our staff members at (202)
                                                1006                                                    619–1368.                                             A. Exclusion Authorities
                                                RIN 0936–AA05                                             Inspection of Public Comments: All                     We propose changes to the exclusion
                                                                                                        comments received before the end of the               regulations at 42 CFR part 1001 to
                                                Medicare and State Health Care                          comment period will be posted on                      codify authorities under the MMA and
                                                Programs: Fraud and Abuse;                              http://www.regulations.gov for public                 ACA and make technical changes to
                                                Revisions to the Office of Inspector                    viewing. Hard copies will also be                     existing regulations. Specifically,
                                                General’s Exclusion Authorities                         available for public inspection at the                section 949 of MMA and section 6402(k)
                                                                                                        Office of Inspector General, Department               of ACA amended section 1128(c)(3)(B)
                                                AGENCY:  Office of Inspector General                    of Health and Human Services, Cohen
                                                (OIG), HHS.                                                                                                   of the Act to expand OIG’s waiver
                                                                                                        Building, 330 Independence Avenue                     authorities. Also, ACA provided that
                                                ACTION: Proposed rule.                                  SW., Washington, DC 20201, Monday                     exclusion may be imposed for:
                                                SUMMARY:   This proposed rule amends                    through Friday from 9:30 a.m. to 4 p.m.                  • Conviction of an offense in
                                                the regulations relating to exclusion                   To schedule an appointment to view                    connection with Obstruction of an
                                                authorities under the authority of the                  public comments, phone (202) 619–                     audit;
                                                Office of Inspector General (OIG) of the                1368.                                                    • Failure to supply payment
                                                Department of Health and Human                          FOR FURTHER INFORMATION CONTACT:                      information (ACA expanded this
                                                Services (HHS or the Department). The                   Susan Gillin, (202) 619–0335, Office of               provision to apply to individuals who
                                                proposed rule would incorporate                         Counsel to the Inspector General.                     ‘‘order, refer for furnishing, or certify
                                                statutory changes, propose early                                                                              the need for’’ items or services for
                                                                                                        SUPPLEMENTARY INFORMATION:
                                                reinstatement procedures, and clarify                                                                         which payment may be made under
                                                existing regulatory provisions.                         Executive Summary                                     Medicare or any State health care
                                                DATES: To ensure consideration,                         I. Purpose of the Regulatory Action                   program); and
                                                comments must be delivered to the                                                                                • Making, or causing to be made, any
                                                address provided below by no later than                 A. Need For Regulatory Action                         false statement, omission, or
                                                5 p.m. Eastern Standard Time on July 8,                   The Affordable Care Act of 2010                     misrepresentation of a material fact in
                                                2014.                                                   (Patient Protection and Affordable Care               applications to participate as a provider
                                                ADDRESSES: In commenting, please                        Act, Pub. L. 111–148, 124 Stat. 119                   of services or supplier under a Federal
                                                reference file code OIG–403–P2.                         (2010), as amended by the Health Care                 health care program.
                                                Because of staff and resource                           and Education Reconciliation Act of                   ACA also established a new authority at
                                                limitations, we cannot accept comments                  2010, Pub. L. 111–152, 124 Stat. 1029                 section 1128(f)(4) of the Act for OIG to
                                                by facsimile (FAX) transmission.                        (2010), hereafter ACA) significantly                  issue testimonial subpoenas in
                                                However, you may submit comments                        expanded OIG’s authority to protect                   investigations of exclusion cases under
                                                using one of three ways (no duplicates,                 Federal health care programs from fraud               section 1128 of the Act.
                                                please):                                                and abuse. OIG proposes to update its                    In addition to the changes under the
                                                  1. Electronically. You may submit                     regulations to codify the changes made                ACA, and pursuant to section 1128(g)(1)
                                                electronically through the Federal                      by ACA in the regulations. At the same                of the Act, we propose a modification to
                                                eRulemaking Portal at http://                           time, OIG proposes updates pursuant to                the reinstatement rules for individuals
                                                www.regulations.gov. (Attachments                       the Medicare Prescription Drug,                       excluded as a result of losing their
                                                should be in Microsoft Word, if                         Improvement, and Modernization Act of                 licenses to allow them to rejoin the
                                                possible.)                                              2003 (MMA) and other statutory                        programs earlier when appropriate.
                                                  2. By regular, express, or overnight                  authorities, as well as technical changes
                                                mail. You may mail your printed or                                                                            III. Costs and Benefits
                                                                                                        to clarify and update the regulations.
                                                written submissions to the following                                                                             There are no significant costs
                                                address: Patrice Drew, Office of                        B. Legal Authority                                    associated with the proposed regulatory
                                                Inspector General, Department of Health                    The legal authority, laid out later in             revisions that would impose any
                                                and Human Services, Attention: OIG–                     the preamble, for this regulatory action              mandates on State, local, or tribal
                                                403–P2, Cohen Building, 330                             is found in the Social Security Act (the              governments or the private sector.
                                                Independence Avenue SW., Room                           Act), as amended by ACA. The legal
                                                5541C, Washington, DC 20201.                            authority for the proposed changes is                   Social Security                 United States Code
                                                                                                                                                                 Act citation                         citation
                                                Please allow sufficient time for mailed                 listed by the parts of Title 42 of the
                                                comments to be received before the                      Code of Federal Regulations that we                   205 ......................   42   U.S.C.   405.
                                                close of the comment period.                            propose to modify:                                    1102 ....................    42   U.S.C.   1302.
                                                  3. By hand or courier. You may                           1000: 42 U.S.C. 1302 and 1395hh.                   1124 ....................    42   U.S.C.   1320a–3
                                                deliver, by hand or courier, before the                    1001: 42 U.S.C. 1302; 1320a–7;                     1126 ....................    42   U.S.C.   1320a–5.
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                close of the comment period, your                       1320a–7b; 1395u(j); 1395u(k); 1395w–                  1128 ....................    42   U.S.C.   1320a–7.
                                                printed or written comments to: Patrice                 104(e)(6); 1395y(d); 1395y(e);                        1128A ..................     42   U.S.C.   1320a–7a.
                                                                                                                                                              1128B ..................     42   U.S.C.   1320a–7b.
                                                Drew, Office of Inspector General,                      1395cc(b)(2)(D), (E), and (F); 1395hh;
                                                                                                                                                              1128C ..................     42   U.S.C.   1320a–7c.
                                                Department of Health and Human                          1842(j)(1)(D)(iv); 1842(k)(1), and sec.               1128E ..................     42   U.S.C.   1320a–7e.
                                                Services, Attention: OIG–403–P2, Cohen                  2455, Public Law 103–355, 108 Stat.                   1128J ...................    42   U.S.C.   1320a–7k.
                                                Building, 330 Independence Avenue                       3327 (31 U.S.C. 6101 note).                           1140 ....................    42   U.S.C.   1320b–10.
                                                SW., Room 5541C, Washington, DC                            1002: 42 U.S.C. 1302, 1320a–3,                     1814 ....................    42   U.S.C.   1395f.
                                                20201.                                                  1320a–5, 1320a–7, 1396(a)(4)(A),                      1833 ....................    42   U.S.C.   1395l.



                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00002   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM    09MYP2
                                                                                  Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                          26811

                                                  Social Security                United States Code          OIG’s authorities to (1) mandate a 5-year             Medicare beneficiaries, in addition to
                                                   Act citation                        citation              minimum exclusion period for felony                   the existing requirement that the
                                                                                                             convictions relating to health care fraud,            requesting administrator determine
                                                1835 ....................   42   U.S.C.   1395n.             even if governmental programs were not                whether the individual or entity for
                                                1842 ....................   42   U.S.C.   1395u.             involved, and for certain felony                      whom the waiver was requested be the
                                                1851 ....................   42   U.S.C.   1395w–21.
                                                1852 ....................   42   U.S.C.   1395w–22.
                                                                                                             convictions relating to controlled                    sole community physician or sole
                                                1857 ....................   42   U.S.C.   1395w–27.          substances; (2) establish minimum or                  source of essential specialized services
                                                1860D–12 ............       42   U.S.C.   1395w–112.         benchmark periods of exclusion from 1                 in a community.
                                                1860D–14A .........         42   U.S.C.   1395w–114A.        to 3 years for certain permissive
                                                                                                                                                                   2. Changes Made by ACA
                                                1861 ....................   42   U.S.C.   1395x.             exclusions; and (3) establish a new
                                                1862 ....................   42   U.S.C.   1395y.             permissive exclusion authority                           Section 6402(k) of ACA further
                                                1866 ....................   42   U.S.C.   1395cc.            applicable to individuals who have an                 amended the Act’s waiver provisions to
                                                1867 ....................   42   U.S.C.   1395dd.            ownership interest in, or have control                permit the administrator of a Federal
                                                1876 ....................   42   U.S.C.   1395mm.                                                                  health care program to request a waiver
                                                1877 ....................   42   U.S.C.   1395nn.
                                                                                                             over, the operations of an entity that has
                                                                                                             been convicted of a program-related                   if the administrator determines that
                                                1882 ....................   42   U.S.C.   1395ss.
                                                1886 ....................   42   U.S.C.   1395ww.            offense. The Balanced Budget Act (BBA)                exclusion would impose a hardship on
                                                1892 ....................   42   U.S.C.   1395ccc.           of 1997 further amended OIG’s                         any beneficiary or beneficiaries eligible
                                                1902 ....................   42   U.S.C.   1396a.             exclusion authorities by (1) extending                to receive items or services under a
                                                1903 ....................   42   U.S.C.   1396b.             the scope of an OIG exclusion beyond                  Federal health care program, which
                                                1915 ....................   42   U.S.C.   1396n.             Medicare and State health care                        broadened the waiver request beyond
                                                1927 ....................   42   U.S.C.   1396r–8.           programs to all Federal health care                   only Medicare beneficiaries as provided
                                                1929 ....................   42   U.S.C.   1396t.                                                                   in MMA.
                                                                                                             programs; (2) establishing permanent
                                                                                                             exclusions for persons convicted of                      In addition, section 6408(c) of ACA
                                                I. Background                                                three or more health care-related crimes              amended section 1128(b)(2) of the Act
                                                A. Exclusion Authority                                       and 10-year exclusions for persons                    by expanding the application of the
                                                                                                             convicted of two health care-related                  permissive exclusion authority to
                                                   OIG’s exclusion authorities are                                                                                 include individuals convicted of an
                                                                                                             crimes; and (3) allowing for the
                                                intended to protect the Federal health                                                                             offense in connection with the
                                                                                                             exclusion of entities owned or
                                                care programs and their beneficiaries                                                                              obstruction of an audit. Section 6406(c)
                                                                                                             controlled by a family or household
                                                from untrustworthy health care                                                                                     of ACA broadened the scope of the
                                                                                                             member of an excluded individual
                                                providers, i.e., individuals and entities                                                                          permissive exclusion authority found in
                                                                                                             when a transfer of ownership was made
                                                who pose a risk to program beneficiaries                     in anticipation of, or following, a                   section 1128(b)(11) of the Act to apply
                                                or to the integrity of these programs.                       conviction. On March 18, 2002, OIG                    to individuals who not only furnish but
                                                These authorities encompass both                             also published several revisions and                  also ‘‘order, refer for furnishing, or
                                                mandatory exclusions (section 1128(a)                        technical corrections to 42 CFR part                  certify the need for’’ items or services
                                                of the Act) and permissive exclusions                        1001 with respect to, among other                     for which payment may be made under
                                                (section 1128(b) of the Act). The                            things, (1) the reinstatement procedures              Medicare or any State health care
                                                mandatory exclusion authorities require                      relating to exclusions resulting from a               program and fail to provide payment
                                                OIG to exclude from Federal health care                      default on health education or                        information. Section 6402(d) of ACA
                                                program participation any individual or                      scholarship obligations made or secured               established a new permissive exclusion
                                                entity convicted of a ‘‘program-related’’                    by the Secretary and (2) expansion of                 authority under section 1128(b)(16) of
                                                crime; a crime related to patient abuse                      the scope of exclusion to all Federal                 the Act applicable to any individual or
                                                or neglect; or certain felonies related to                   health care programs.                                 entity that knowingly makes, or causes
                                                health care delivery, governmental                                                                                 to be made, any false statement,
                                                health care programs, or controlled                          1. Changes Made by MMA                                omission, or misrepresentation of a
                                                substances. Mandatory exclusions are                            MMA amended OIG’s authority to                     material fact in any application,
                                                for a period of at least 5 years. The                        waive mandatory exclusions in several                 agreement, bid, or contract to participate
                                                permissive authorities do not require                        ways. First, section 949 of MMA                       or enroll as a provider of services or
                                                the imposition of an exclusion, and may                      amended section 1128(c)(3)(B) of the                  supplier under a Federal health care
                                                either be (1) ‘‘derivative’’ exclusions                      Act by expanding the waiver provision                 program. Finally, section 6402(e) of
                                                that are based on actions previously                         of the Act to allow waiver requests for               ACA established a new authority at
                                                taken by a court or other law                                individuals excluded under either of the              section 1128(f)(4) of the Act for OIG to
                                                enforcement or regulatory agency or (2)                      two mandatory exclusion authorities                   issue testimonial subpoenas in
                                                ‘‘affirmative’’ exclusions that are based                    that were added in HIPAA, sections                    investigations of exclusion cases under
                                                on OIG-initiated determinations of                           1128(a)(3) and (a)(4) of the Act. Second,             section 1128 of the Act.
                                                misconduct, e.g., poor quality of care,                      prior to MMA, a waiver request could be                  We propose changes to the OIG
                                                kickbacks, or submission of false claims                     made only by the administrator of a                   regulations at 42 CFR parts 1001 and
                                                to a Federal health care program. While                      State agency for a waiver of the State                1006 to reflect the revised provisions set
                                                there is no 5-year minimum term for                          health care program. Section 949 of                   forth in MMA and ACA.
                                                permissive exclusions, some permissive                       MMA expanded the mandatory
                                                authorities have varying minimum or                          exclusion waiver provision by                         3. Proposed Policy Changes and
                                                                                                                                                                   Clarifying Changes
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                benchmark exclusion terms.                                   permitting the administrator of any
                                                   Over the years, several statutory and                     Federal health care program to request                   We propose a number of changes to
                                                regulatory provisions have amended or                        a waiver for the respective Federal                   the regulations to correct omissions
                                                further clarified OIG’s exclusion                            health care program. Third, MMA added                 from previous regulatory issuances, to
                                                authorities. Specifically, in 1996,                          a provision requiring the requesting                  update certain dollar figures related to
                                                provisions within the Health Insurance                       Federal health care program                           aggravating factors, and to clarify
                                                Portability and Accountability Act of                        administrator to determine whether the                existing regulatory provisions. We also
                                                1996 (HIPAA) revised or expanded                             exclusion would impose a hardship on                  propose several policy changes. These


                                           VerDate Mar<15>2010      14:54 May 08, 2014     Jkt 232001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26812                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                include proposals to: (1) Create early                     In addition, OIG has always                        to Medicare are at 42 CFR 400.202, and
                                                reinstatement procedures for exclusions                 interpreted the definition of                         definitions specific to Medicaid are at
                                                pursuant to the loss of a health care                   ‘‘indirectly’’ at 42 CFR 1000.10,                     42 CFR 400.203. We are retaining the
                                                license; (2) expand the ‘‘pay the first                 regarding furnishing items or services,               definitions at § 1000.10 that continue to
                                                claim rule’’ in § 1001.1901(c) so that it               to cover any employee or contractor of                apply to the regulations in chapter V,
                                                would apply to Medicare Parts C and D;                  a provider that receives payment from                 which were created pursuant to OIG’s
                                                and (3) clarify that no statute of                      any Federal health care program related               authorities under Title XI of the Act.
                                                limitations period applies to exclusions                to such items or services. Therefore, we
                                                                                                        propose adding the word ‘‘provided’’                  2. Changes to Part 1001
                                                imposed under section 1128(b)(7) of the
                                                Act.                                                    (with conforming technical edits) within              1001.2 Definition of ‘‘Ownership or
                                                   Part 1002 provides direction to State                the first part of the definition of                   Control Interest’’
                                                Medicaid agencies when they exercise                    ‘‘indirectly’’ to read as follows:                       We propose moving the definition of
                                                their program integrity responsibilities                ‘‘Indirectly, as used in the definition of            ‘‘ownership or control interest’’ and its
                                                by independently initiating exclusion                   ‘furnished’ in this section, means the                related definitions, including the
                                                actions. The regulatory provisions place                provision or supply of items and                      definition of ‘‘managing employee,’’ to
                                                certain requirements on State agencies                  services manufactured, distributed,                   the definitions section at § 1001.2.
                                                when they undertake such exclusions—                    supplied, or otherwise provided by
                                                                                                                                                              Currently, the definitions are at
                                                requirements that are substantially                     individuals or entities.’’
                                                                                                                                                              § 1001.1001, the regulation section
                                                consistent with OIG procedures and are                     We propose to move the definitions of
                                                                                                        ‘‘ALJ,’’ ‘‘Exclusion,’’ ‘‘State,’’ and ‘‘State        related to exclusion of entities owned or
                                                designed to ensure adequate due                                                                               controlled by a sanctioned person.
                                                process. The proposed revisions to part                 health care program’’ from parts 1001
                                                                                                        and 1003 to part 1000. The proposed                      In addition, because we have
                                                1002 consist of minimal reorganization,                                                                       proposed that the definition of
                                                several new headings to clarify the                     definitions of ‘‘ALJ’’ and ‘‘State’’ are
                                                                                                        currently found in part 1003. The                     ‘‘ownership or control interest’’ and its
                                                applicability of certain provisions,                                                                          related definitions apply to all of part
                                                language to clarify existing Federal                    proposed definitions of ‘‘Exclusion’’ and
                                                                                                        ‘‘State health care program’’ are                     1001, we would remove references to
                                                requirements, and a listing of the                                                                            the statutory definition of these terms.
                                                statutory underpinnings of the                          currently found in part 1001. The
                                                                                                        proposed definition of ‘‘State health                 Therefore, with respect to ‘‘ownership
                                                provisions in part 1002.                                                                                      or control interest,’’ we propose
                                                                                                        care program’’ includes minor revisions
                                                II. Provisions of the Proposed Rule                     to the definition currently found in part             removing the phrase ‘‘as defined in
                                                                                                        1001 to include Title XXI, the                        section 1124(a)(3) of the Act’’ from
                                                A. Exclusion Authorities                                                                                      §§ 1001.101(d) and 1001.401(a). With
                                                                                                        Children’s Health Insurance Program.
                                                  We propose changes to the OIG                         The BBA added Title XXI to the                        respect to ‘‘managing employee,’’ we
                                                regulations at 42 CFR parts 1000, 1001,                 statutory definition of ‘‘State health care           also propose removing the phrase ‘‘as
                                                1002, and 1006.                                         program’’ under section 1128(h) of the                defined in section 1126(b) of the Act’’
                                                1. Changes to Part 1000                                 Act. We also propose minor revisions to               from §§ 1001.101(d), 1001.401(a), and
                                                                                                        the current part 1000 definitions of                  1001.1051(a).
                                                1000.10 Definitions of ‘‘Directly,’’                                                                             We also propose to remove the
                                                                                                        ‘‘QIO’’ and ‘‘Secretary’’ because we are
                                                ‘‘Furnished,’’ and ‘‘Indirectly’’                                                                             definitions of ‘‘Exclusion,’’ ‘‘OIG,’’
                                                                                                        removing those definitions from parts
                                                   We propose a number of technical                     1001 and 1003, respectively.                          ‘‘QIO,’’ and ‘‘State health care program.’’
                                                revisions to the definitions of ‘‘directly’’               Lastly, we propose making a technical              As discussed above, we propose to
                                                and ‘‘indirectly’’ as used in the                       revision to the definition of                         move the definitions of ‘‘Exclusion’’ and
                                                definition of ‘‘furnished.’’ First, we                  ‘‘furnished.’’ The current definition                 ‘‘State health care program’’ from part
                                                propose adding the word ‘‘supply’’ to                   includes part of the definition of                    1001 to part 1000. We propose to
                                                the definitions of ‘‘directly’’ and                     ‘‘indirectly.’’ This is both redundant and            remove the definitions of ‘‘OIG’’ and
                                                ‘‘indirectly’’ because the definition of                somewhat confusing. Therefore, we                     ‘‘QIO’’ from part 1001 because those
                                                ‘‘furnished’’ includes both the provision               propose to streamline the definition of               definitions are included in part 1000.
                                                and supply of items and services.                       ‘‘furnished’’ by removing this language.              1001.101 and 1001.401 Application of
                                                   Next, we propose to remove the
                                                                                                        1000.20 and 1000.30 Definitions                       Certain Exclusions to Health Care
                                                phrase ‘‘submit claims to’’ and replace
                                                                                                        Pertaining to Medicare and Medicaid                   Providers
                                                it with ‘‘request or receive payment
                                                from’’ immediately preceding ‘‘Federal                    We propose removing the definitions                   At §§ 1001.101(d) and 1001.401(a)(1),
                                                health care programs’’ in the definitions               currently found at §§ 1000.20 and                     respectively, we currently restrict the
                                                of ‘‘directly’’ and ‘‘indirectly.’’ We                  1000.30 from part 1000. These                         imposition of mandatory exclusions
                                                would replace the phrase for clarity’s                  definitions are not, and have never                   under section 1128(a)(4) of the Act and
                                                sake, and the revised wording would be                  been, applicable to the OIG regulations               permissive exclusions under section
                                                consistent with the False Claims Act’s                  in 42 CFR chapter V. These                            1128(b)(3) of the Act by limiting the
                                                broad definition of ‘‘claim’’ (31 U.S.C.                programmatic definitions, which apply                 applicability of these provisions to those
                                                3729(b)). This proposed change would                    to Medicare and Medicaid (Titles XVIII                individuals or entities that: (1) Are, or
                                                appropriately encompass all current and                 and XIX of the Act), were originally                  have ever been, health care
                                                future payment methodologies.                           included in chapter V for ease of                     practitioners, providers, or suppliers; (2)
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                   We further propose removing the                      reference, not because they defined                   hold or held ownership or control
                                                redundant sentence within the                           terms in chapter V. They are no longer                interests, or are or have been officers,
                                                definition of ‘‘indirectly’’ stating that               useful, even as a reference source,                   directors, or managing employees, in
                                                the word ‘‘indirectly’’ does not include                because exclusions imposed under                      health care entities; or (3) are or have
                                                the direct submission of claims by                      chapter V are from all Federal health                 ever been employed in any capacity in
                                                another individual or entity because                    care programs, not only from Medicare                 the health care industry. To continue to
                                                that clarification is already present                   and State health care programs as was                 protect the programs and their
                                                within the definition of ‘‘directly.’’                  the case until 1996. Definitions specific             beneficiaries, but not expend OIG’s


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                          26813

                                                limited resources to unnecessarily                      duplicative of § 1001.102(b)(1), which                because each of these exclusions
                                                exclude people who do not participate                   provides for an increase in the exclusion             requires a felony conviction. Finally, we
                                                in Federal health care programs, we                     period for causing a financial loss to a              propose to increase the loss amount to
                                                propose to further narrow the                           Government program. In general, being                 $5,000. We believe this updated amount
                                                application of sections 1128(a)(4) and                  overpaid by Federal health care                       is an appropriate threshold that is
                                                1128(b)(3) of the Act to reference the                  programs for improper billings is                     consistent with rationale behind the
                                                time of the offense. Under our proposal,                substantially the same as causing a loss              original amount.
                                                those individuals subject to exclusion                  to a Government program. Therefore, we
                                                                                                                                                              1001.102(d) Effect of Additional
                                                would be either (1) current health care                 propose removing this aggravating
                                                                                                                                                              Previous Convictions on Term of
                                                practitioners, providers, suppliers, those              factor. This change will require a
                                                                                                                                                              Exclusion
                                                who furnish items or services, owners,                  renumbering of the remaining
                                                managing employees, or those who are                    aggravating factors.                                    We propose correcting an
                                                employed in any capacity in the health                                                                        inconsistency between the regulatory
                                                                                                        1001.102(b)(9), 1001.201(b)(2)(vi),                   and statutory language with respect to
                                                care industry; or (2) individuals who
                                                                                                        1001.301(b)(2)(vi), and 1001.401(c)(2)(v)             section 1128(c)(3)(G) of the Act relating
                                                were health care practitioners,
                                                                                                        Other Offenses and Adverse Actions                    to increased minimum exclusion
                                                providers, suppliers, those who
                                                furnished items or services, owners,                      The aggravating factor set forth for                periods for repeat offenders. The statute
                                                managing employees, or those who were                   various exclusion authorities at                      requires a minimum 10-year period of
                                                employed in any capacity in the health                  §§ 1001.102(b)(9), 1001.201(b)(2)(vi),                exclusion for individuals who have
                                                care industry at the time of the offense.               1001.301(b)(2)(vi), and                               been convicted on one previous
                                                                                                        1001.401(c)(2)(v), which considers other              occasion of one or more offenses for
                                                1001.102(b)(1), 201(b)(2), and                          offenses besides those that form the                  which an exclusion may be effected
                                                701(d)(2)(iv) Financial Loss                            basis for the exclusions, involves two                under section 1128(a) of the Act
                                                Aggravating Factors                                     separate concepts: Convictions for                    (whether or not an exclusion was ever
                                                   With respect to the length of an                     offenses other than the one resulting in              imposed) and permanent exclusion for
                                                exclusion, §§ 1001.102(b)(1) and                        exclusion and adverse actions by                      individuals convicted on two or more
                                                1001.201(b)(2)(i) list, as an aggravating               governmental entities other than the one              previous occasions. However, the
                                                factor, whether the acts resulting in the               resulting in exclusion. Therefore, we                 current regulation at § 1001.102(d)
                                                conviction, or similar acts, caused or                  propose separating this factor into two               provides for a minimum 10-year period
                                                were intended to cause, a financial loss                separate aggravating factors,                         of exclusion for individuals who have
                                                of $5,000 or more. The regulations                      renumbering them accordingly, and                     been convicted on one other occasion of
                                                related to certain affirmative exclusions               putting them both in the present perfect              one or more offenses for which an
                                                at § 1001.701(d)(2)(iv) reference a                     tense to more accurately reflect the                  exclusion may be effected under section
                                                financial loss of $1,500 or more. These                 purpose of the aggravating factor.                    1128(a) of the Act and permanent
                                                provisions were last updated in 2002                    Accordingly, new §§ 1001.102(b)(8),                   exclusion for individuals convicted on
                                                and 1998, respectively. To update the                   1001.201(b)(2)(vi), 1001.301(b)(2)(vi),               two or more other occasions. We
                                                regulations, we propose increasing the                  and 1001.401(c)(2)(v) would read:                     propose replacing the word ‘‘other’’
                                                aggravating factor to $15,000. We                       ‘‘Whether the individual or entity has                with ‘‘previous’’ to be consistent with
                                                believe this updated amount is an                       been convicted of other offenses besides              the statute and to clarify that if an
                                                appropriate threshold that is consistent                those that formed the basis for the                   individual has been previously
                                                with rationale behind the original                      exclusion,’’ and new §§ 1001.102(b)(9),               convicted of an offense that would have
                                                amount and provides a realistic marker                  1001.201(b)(2)(vii), 1001.301(b)(2)(vii),             mandated exclusion, regardless of
                                                for determining whether someone is                      and 1001.401(c)(2)(vi) would read:                    whether the individual had been
                                                untrustworthy. In addition, we propose                  ‘‘Whether the individual or entity has                excluded previously, section
                                                a grammatical correction by removing                    been the subject of any other adverse                 1128(c)(3)(G) of the Act requires OIG to
                                                the word ‘‘that’’ from the first sentence.              action by any Federal, State or local                 exclude for a minimum 10-year period
                                                Finally, we propose substituting the                    government agency or board, if the                    or permanently if the individual has
                                                term ‘‘entire’’ for ‘‘total’’ to be consistent          adverse action is based on the same set               been convicted on two or more previous
                                                throughout the regulations. Thus, the                   of circumstances that serves as the basis             occasions.
                                                provision would state: ‘‘The acts                       for the imposition of the exclusion.’’
                                                                                                                                                              1001.201, 1001.301, 1001.401, 1001.501,
                                                resulting in the conviction or similar
                                                                                                        1001.102(c)(1) Mitigating Factor                      1001.601, 1001.701, 1001.801, 1001.951,
                                                acts, caused, or were intended to cause,
                                                                                                        Relating to Misdemeanor Offenses and                  1001.1101, 1001.1201, 1001.1601, and
                                                a financial loss to a Government
                                                                                                        Loss to Government Programs                           1001.1701 Mitigating Factor Relating
                                                program or to one or more entities of
                                                                                                          We propose updating this mitigating                 to Alternative Sources
                                                $15,000 or more. (The entire amount of
                                                financial loss will be considered,                      factor, which considers whether an                      We propose removing the mitigating
                                                including any amounts resulting from                    individual or entity was convicted of                 factor for determining the length of
                                                similar acts not adjudicated, regardless                three or fewer misdemeanor offenses                   exclusion under various permissive
                                                of whether full or partial restitution has              and caused losses to Medicare or any                  exclusion authorities that considers
                                                been made).’’                                           other governmental health program of                  whether alternative sources of the type
                                                                                                        less than $1,500. First, we propose to                of health care items or services
                                                1001.102(b)(7) Aggravating Factor
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                                                                        clarify that this factor applies only to              furnished by the individual are not
                                                Related to Overpayments                                 section 1128(a)(1) of the Act. This factor            available. On the basis of our
                                                   We propose removing the aggravating                  does not apply to section 1128(a)(2) of               experience, we believe that this factor
                                                factor relating to an individual or entity              the Act because section 1128(a)(2)                    could be considered by OIG in
                                                being overpaid by Medicare, Medicaid,                   pertains to patient abuse and neglect,                determining whether a permissive
                                                or other Federal health care programs as                and financial loss is irrelevant. In                  exclusion should be imposed and
                                                a result of improper billings at                        addition, this mitigating factor does not             whether a waiver is appropriate, but
                                                § 1001.102(b)(7) because it is                          apply to sections 1128(a)(3) and (4)                  does not relate to the length of


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26814                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                exclusion. Therefore, we propose                        1001.401 Correction of a Cross-                       professional performance, or financial
                                                removing this factor.                                   Reference for Aggravating and                         integrity.
                                                                                                        Mitigating Factors                                       Prior to the enactment of section
                                                1001.201(b)(3)(i) Mitigating Factor
                                                Relating to Other Offenses and Loss to                     We propose correcting a cross-                     1128(c)(3)(E) of the Act, the regulations
                                                Government Programs                                     reference within the regulatory language              allowed for reinstatement when an
                                                                                                        at § 1001.401(c). Specifically,                       individual who had been excluded
                                                  As in § 1001.102(c)(1), we propose                                                                          under section 1128(b)(4) of the Act due
                                                updating the mitigating factor relating to              § 1001.401(c) mistakenly states: ‘‘The
                                                                                                        aggravating or mitigating factors listed              to the loss of a health care license in one
                                                permissive exclusions by increasing the                                                                       State fully and accurately disclosed the
                                                threshold financial loss amount OIG                     in paragraphs (b)(2) and (b)(3) of this
                                                                                                        section,’’ when it should state ‘‘the                 circumstances surrounding this action
                                                will consider as a mitigating factor                                                                          to a licensing authority of a different
                                                under § 1001.201(b)(3)(i) to $5,000.                    aggravating or mitigating factors listed
                                                                                                        in paragraphs (c)(2) and (c)(3) of this               State and when that State granted the
                                                1001.301 Expanded Application of a                      section.’’                                            individual or entity a new license or
                                                Specific Permissive Exclusion Authority                                                                       took no significant adverse action as to
                                                                                                        1001.501 and 1001.601 Aggravating                     a currently held license. However, upon
                                                   Prior to ACA, section 1128(b)(2) of the              and Mitigating Factors Relating to
                                                Act permitted the Secretary to exclude                                                                        the enactment of section 1128(c)(3)(E) of
                                                                                                        Exclusions Based on the Loss of a                     the Act in 1997, this provision was
                                                any individual or entity that had been                  Health Care License or Suspension or
                                                convicted of an offense in connection                                                                         removed from the regulations. Thus,
                                                                                                        Exclusion by a Federal or State Health                under current regulations, an individual
                                                with the obstruction of an investigation                Care Program
                                                into any criminal offense described                                                                           excluded under section 1128(b)(4) of the
                                                under any of the mandatory exclusion                       We propose removing all the                        Act is not eligible to be reinstated to
                                                authorities or under the permissive                     aggravating and mitigating factors found              Federal health care programs until the
                                                exclusion authority related to health                   at §§ 1001.501(b) and 601(b), which                   license that was originally lost, in the
                                                care fraud or fraud in a governmental                   permit OIG to lengthen periods of                     same State where it was lost, has been
                                                program. However, if an individual or                   exclusion based on the loss of an                     restored.
                                                entity was convicted of an offense in                   individual’s or entity’s health care                     Section 1128(g) of the Act allows an
                                                connection with the obstruction of an                   license and exclusion or suspension                   excluded individual to apply for
                                                audit, the Secretary did not have a basis               from a Federal or State health care                   reinstatement in the manner specified
                                                to exclude the individual or entity                     program. Because exclusions under                     by the Secretary in regulations and at
                                                under section 1128(b)(2) of the Act.                    sections 1128(b)(4) and (b)(5) of the Act             the minimum period of exclusion
                                                Section 6408(c) of ACA expanded the                     are derivative of a licensing board action            provided under paragraph (c)(3) and ‘‘at
                                                authority by allowing the Secretary to                  or Federal or State health care program               such other times as the Secretary may
                                                exclude an individual or entity that has                action, respectively, OIG generally                   provide.’’ Moreover, courts have held
                                                been convicted of an offense in                         imposes exclusions under these sections               that the purpose and effect of the
                                                connection with the obstruction of an                   for the same period as that of the                    exclusion period is remedial and is
                                                investigation or audit related to any                   licensing board’s or agency’s action. As              intended to protect the Federal health
                                                criminal offense under the mandatory                    a result, individuals are generally                   care programs from fraud and abuse and
                                                provisions of the exclusion statute;                    eligible for reinstatement once they                  to protect citizens who rely on the
                                                under the permissive provision related                  regain their health care licenses or are              integrity of program participants.
                                                to health care fraud or fraud in a                      allowed to participate in the Federal or                 OIG excludes a significant number of
                                                governmental program; or in cases when                  State health care program. Our proposed               individuals under section 1128(b)(4) of
                                                the investigation or audit related to the               removal of these aggravating and                      the Act. Many of these individuals
                                                use of Federal health care program                      mitigating factors would make the                     either lose their licenses permanently,
                                                funds received, directly or indirectly.                 regulations consistent with OIG’s                     move to another State and obtain a
                                                This new provision under ACA applies                    general practice under these sections. In             license there, or do not intend to seek
                                                to acts committed on or after January 1,                addition, because exclusions under                    reinstatement of their health care
                                                2010.                                                   § 1001.601 are based on actions by                    license. Under current regulations, the
                                                   Accordingly, we propose to revise                    either a Federal or a State health care               excluded individuals may never become
                                                § 1001.301 to reflect the changes in ACA                program, we would clarify § 1001.601(b)               eligible for reinstatement even though
                                                by adding ‘‘or audit’’ to the title. In                 by adding references to Federal health                the exclusion may no longer be
                                                addition, we propose to add a new                       care programs. Therefore, we propose to               necessary to protect patients or the
                                                paragraph reflecting the changes made                   revise §§ 1001.501(b) and 1001.601(b)                 programs. For example, we have seen
                                                by section 6408 of ACA.                                 accordingly.                                          many cases in which a medical board
                                                   In addition, we propose adding the                                                                         permanently revoked a physician’s
                                                financial loss aggravating factor under                 1001.501      Early Reinstatement                     license, making that physician
                                                the permissive exclusion authority                        For several reasons, we are                         permanently ineligible for
                                                related to obstruction of investigations                considering instituting a process for                 reinstatement. This permanent
                                                and audits as permitted under section                   early reinstatement for individuals                   ineligibility exists under current
                                                1128(c)(3)(D) of the Act. The financial                 excluded under section 1128(b)(4) of the              regulations even though another State or
                                                loss factor is considered by OIG under                  Act. OIG has discretionary authority to               another licensing board subsequently
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                most of the mandatory exclusion                         exclude individuals or entities under                 granted the physician a license. In
                                                authorities and other permissive                        section 1128(b) of the Act. Specifically,             addition, we regularly are contacted by
                                                exclusion authorities. Adding this                      section 1128(b)(4) of the Act permits                 individuals who have changed
                                                aggravating factor would allow OIG to                   OIG to exclude individuals from                       professions and never intend to regain
                                                increase the period of exclusion if the                 participation in all Federal health care              their original licenses but for whom the
                                                acts, or similar acts, that resulted in the             programs because of the loss of their                 exclusion is a permanent obstacle to
                                                obstruction conviction caused a                         health care licenses for reasons bearing              practicing a new health-care related
                                                financial loss of $15,000 or more.                      on their professional competence,                     profession.


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                            26815

                                                   In contrast, OIG is required to exclude              the Act for exclusions under section                  and criminal prosecutions may be
                                                individuals or entities convicted of                    1128(b)(4) of the Act. The excluded                   pursued, do not include periods of
                                                certain health-care-related offenses                    individual would be eligible to apply for             limitations. Instead, section 1128A(c)
                                                under section 1128(a) of the Act for a                  reinstatement when the 3-year period                  sets forth a period of limitations for
                                                minimum of 5 years. Absent any                          ends or when the individual regains his               CMP actions and states that the
                                                aggravating factors, exclusions under                   or her health care license, whichever                 ‘‘Secretary may not initiate an action
                                                the mandatory provisions of the Act                     comes first. We solicit comments on                   under this section’’ more than 6 years
                                                require only a 5-year period of                         whether this approach would                           after the underlying conduct. The
                                                exclusion. Many permissive exclusions                   appropriately protect Federal health                  criminal actions in section 1128B of the
                                                under section 1128(b)(4) of the Act                     care programs and their beneficiaries.                Act are limited by a period of
                                                result in permanent exclusions, even                    1001.701, 1001.801, and 1001.1701                     limitations applicable to Federal
                                                though the individuals were never                       Correction of Subsection Headings                     noncapital criminal cases in 18 U.S.C.
                                                charged with or convicted of criminal                                                                         3282.
                                                offenses. To serve the remedial purpose                    Throughout the regulations, the
                                                                                                                                                                 We agree that, as a general matter,
                                                and intent of the statute, we are                       paragraph headings are italicized.
                                                                                                                                                              recent acts are more indicative of
                                                considering an alternative reinstatement                However, in §§ 1001.701, 1001.801, and
                                                                                                                                                              current trustworthiness than acts that
                                                process.                                                1001.1701, paragraph headings were not
                                                                                                                                                              took place in the distant past.
                                                                                                        italicized. We therefore propose to
                                                   For special instances, such as when                                                                        Nevertheless, we believe that conduct
                                                                                                        correct this omission. For example,
                                                OIG imposes a permissive exclusion on                   paragraph heading (a) in all three                    that is more than 6 years old may
                                                the basis of a licensing board action and               sections would now be italicized and                  sometimes form a proper basis to
                                                subsequently determines that the                        read as: ‘‘(a) Circumstance for                       conclude that a person should be
                                                individual poses little or no threat to                 exclusion.’’                                          excluded. The age of the conduct is a
                                                patients or the programs and when                                                                             factor in determining the weight the
                                                license reinstatement by the original                   1001.901(c) Period of Limitations on                  conduct should be afforded, not
                                                licensing board is extremely unlikely,                  Affirmative Exclusions                                whether the exclusion should be
                                                OIG is considering a process for ‘‘early                   To address questions regarding                     imposed at all. We do not believe the
                                                reinstatement’’ pursuant to OIG’s                       whether a limitations period applies to               passage of time will prejudice the
                                                authority under section 1128(g) of the                  exclusions imposed under section 1128                 person subject to exclusion. For
                                                Act and the discretion inherent in the                  of the Act, we propose adding paragraph               example, exclusions under section
                                                permissive exclusion provisions in                      (c) to § 1001.901, which would provide                1128(b)(7) of the Act often arise in the
                                                section 1128(b) of the Act. Thus, we                    that there is no time limitation to                   context of related civil False Claims Act
                                                propose to amend the regulations to                     exclusions imposed under this                         proceedings, because the elements of
                                                allow for early reinstatement, and to                   authority, even when the exclusion is                 the False Claims Act are essentially
                                                include a list of factors OIG will                      based on violations of another statute                identical to false claims provisions of
                                                consider in determining whether early                   that might have a specific limitations                section 1128A. Many False Claims Act
                                                reinstatement is appropriate.                           period. In 2002, we issued a final rule               cases are resolved through settlement or
                                                Specifically, we would add a section                    stating that we had proposed a                        litigation significantly later than 6 years
                                                entitled ‘‘(c) Early Reinstatement,’’                   regulation stating that there would be no             after the underlying conduct. In most
                                                which would have two subparts. The                      time limitation on OIG’s imposition of                cases, the OIG determines whether to
                                                first subpart would allow an excluded                   a program exclusion, that we had                      seek an exclusion only when the
                                                individual to request early                             received comments on this proposal,                   settlement terms are set or there is a
                                                reinstatement if, after fully and                       and that the comments led us not to                   judgment. In most cases, the settlement
                                                accurately disclosing the circumstances                 finalize the proposed regulation. See 67              resolves both False Claims Act and
                                                surrounding the original license action                 FR 11928, 11929 (March 18, 2002).                     section 1128(b)(7) liability
                                                that formed the basis for the exclusion,                   We believe strong policy and legal                 simultaneously in one settlement
                                                the individual obtained a health care                   justifications support our interpretation             agreement. When determining whether
                                                license, was allowed to retain a health                 that there is no limitations period                   to seek an exclusion under section
                                                care license in another State, or retained              applicable to exclusions imposed under                1128(b)(7), the OIG considers whether
                                                a different health care license in the                  section 1128(b)(7) of the Act. The 2002               the provider has agreed to pay
                                                same State. The second subpart would                    comments raised concerns that (1) if an               appropriate restitution, fines, or
                                                allow an excluded individual to request                 exclusion is based on a violation of                  penalties and whether it will agree to
                                                early reinstatement if he or she did not                another statute, the individual or entity             appropriate compliance measures. See
                                                have a valid health care license of any                 could be excluded for conduct that                    62 Federal Register 67392 (December
                                                kind provided that the individual could                 occurred years before and that does not               24, 1997). Until a settlement agreement
                                                demonstrate that he or she would no                     bear on the person’s current                          is reached, the OIG cannot know
                                                longer pose a threat to Federal health                  trustworthiness or integrity and (2) after            whether the provider will agree to make
                                                care programs and their beneficiaries. In               the passage of significant time, evidence             such payments or subject itself to
                                                proposed § 1001.501, we state a number                  becomes difficult or impossible to                    appropriate compliance measures.
                                                of factors OIG would consider in making                 gather. However, it is significant that no            Therefore, in most cases it makes sense
                                                this determination. We are also                         limitations period is specified in section            for the OIG to decide whether to impose
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                considering alternative approaches, and                 1128 of the Act. In addition, we do not               an exclusion based on the facts and
                                                solicit comments on these and any                       believe that the reference in section                 circumstances at the time of the
                                                additional factors that should be                       1128(b)(7) of the Act to other sections of            potential settlement. If the case does not
                                                considered. For example, we are                         the Act means that a limitations period               settle and there is litigation under the
                                                considering applying the same 3-year                    applicable to another section of the Act              False Claims Act, the OIG generally
                                                benchmark exclusion period that                         should be incorporated into section                   waits to see what the civil findings are
                                                applies to other permissive exclusions                  1128(b)(7). The referenced sections,                  before determining whether to seek an
                                                under sections 1128(b)(1), (2), and (3) of              which describe acts for which CMPs                    exclusion.


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00007   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26816                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                   If section 1128(b)(7) is subject to a six            entity with which the individual has or               agrees to the service obligations
                                                year statute of limitations, then the OIG               had the prohibited relationship. We                   required by the LRP in return for the
                                                will often be forced to file exclusion                  believe this proposed clarification                   repayment by the program of
                                                actions prematurely. In False Claims Act                would be consistent with the intent of                outstanding loan obligations incurred by
                                                cases where the conduct is 6 years old,                 the statute, which allows OIG to exclude              the individual in connection with his or
                                                the OIG may need to file a notice of                    individuals who have ownership or                     her health education. Although section
                                                proposed exclusion in order to toll the                 control interests in sanctioned entities.             1128(b)(14) does not specifically refer to
                                                statute of limitations. Such an action                  The proposed change would clarify that                loan repayment programs, we have
                                                would need to be taken without the                      if an individual terminated the                       concluded that these programs fall
                                                benefit of knowing whether the                          relationship with the sanctioned entity               within the scope of the statute. They are
                                                defendant would agree to a settlement                   after it has been excluded, the                       essentially a type of scholarship
                                                including appropriate payment and                       individual would nonetheless remain                   awarded by HHS after an individual’s
                                                compliance measures. It may result in                   excluded for the same period that the                 health education is completed rather
                                                the exclusion of providers who                          sanctioned entity is excluded.                        than in advance, a scholarship in the
                                                otherwise might be deemed by the OIG                                                                          form of loan repayment rather than an
                                                                                                        1001.1201 Broadened Scope of a
                                                to be trustworthy enough to participate                                                                       upfront payment of tuition. We believe
                                                                                                        Permissive Exclusion Authority
                                                in the programs. The filing of exclusion                                                                      that this interpretation is consistent
                                                actions while False Claims Act cases are                   Section 1128(b)(11) of the Act permits             with the broad language of the statute
                                                still pending would require the OIG, the                OIG to exclude an individual or entity                and with congressional intent in
                                                defendant, and the DAB to devote                        ‘‘furnishing items or services for which              enacting section 1128(b)(14), which was
                                                resources to cases that would otherwise                 payment may be made’’ under Medicare                  to provide HHS with a significant
                                                settle. Further, the filing of exclusion                or a State health care program that fails             remedy when those who have received
                                                actions during the pendency of a False                  to supply certain payment information                 health education assistance from an
                                                Claims Act investigation or settlement                  as required by the Secretary or the State             HHS program default on their
                                                discussion may disrupt the civil case.                  agency. Section 6406(c) of ACA                        repayment obligations. To clarify that
                                                Therefore, we believe that in such cases,               broadened the scope of the permissive                 section 1128(b)(14) also applies to those
                                                it is appropriate for us to consider                    exclusion under section 1128(b)(11) of                who default on LRP obligations, we
                                                exclusion based on conduct that is more                 the Act by revising the first phrase as               propose to amend the regulation to
                                                than 6 years old.                                       follows: ‘‘Any individual or entity                   specifically reference them.
                                                                                                        furnishing, ordering, referring for                      In addition, we propose a technical
                                                1001.1001 Exclusion of Entities                         furnishing, or certifying the need for                amendment to this regulatory provision.
                                                Owned or Controlled by a Sanctioned                     items or services. . . .’’ Accordingly, we            The regulations currently reference the
                                                Person                                                  would amend § 1001.1201 by adding the                 Public Health Service (PHS) as the
                                                   As described above, we propose to                    phrase ‘‘orders, refers for furnishing, or            organization responsible for
                                                move all the definitions in § 1001.1001                 certifies the need for’’ after ‘‘furnishes.’’         determining whether an individual is in
                                                to § 1001.2 to create a definition of                                                                         default on his or her loans or
                                                ‘‘ownership or control interest’’ that                  1001.1301 Exclusion for Failure To
                                                                                                                                                              scholarship obligations. However, other
                                                applies to both the exclusions and CMP                  Grant Immediate Access
                                                                                                                                                              HHS organizations, such as the Indian
                                                regulations. As a result of this removal,                 We propose several technical changes                Health Service and NIH, also administer
                                                we propose to remove                                    to this section. First, we clarify that OIG           health education loans, scholarship
                                                §§ 1001.1001(a)(1)(ii)(A) and (B) and                   may request access to materials other                 programs, and loan repayment
                                                revise paragraph (a)(2) to read as                      than paper documents, such as                         programs. Therefore, we propose
                                                follows: ‘‘(2) Such a person has a direct               electronically stored data, including any             amending the regulation to make it
                                                or indirect ownership or control interest               tangible thing upon which data is                     consistent with the broad language of
                                                in the entity or formerly held an                       stored. This change conforms to                       the statute by replacing ‘‘PHS’’ with
                                                ownership or control interest in the                    clarifications made to the Inspector                  ‘‘the administrator of the health
                                                entity, but no longer holds an                          General’s authorities in section 9 of the             education loan, scholarship, or loan
                                                ownership or control interest because of                Inspector General Reform Act of 2008,                 repayment program,’’ where applicable.
                                                a transfer of the interest to an immediate              Public Law 110–409. Second, we
                                                                                                                                                              1001.1751 Establishment of a New
                                                family member or a member of the                        propose several technical changes to
                                                                                                                                                              Permissive Exclusion Authority
                                                person’s household in anticipation of or                make the terms used in the regulation
                                                following a conviction, assessment of a                 more consistent.                                         Section 6402(d) of ACA granted a new
                                                CMP, or imposition of an exclusion.’’                                                                         permissive exclusion authority to the
                                                                                                        1001.1501 Exclusion for Default on                    Secretary under section 1128(b) of the
                                                1001.1051 Exclusion of Individuals                      Health Education Assistance Loans                     Act. Under the newly enacted section
                                                With Ownership or Control Interest in                   (HEAL Loans)                                          1128(b)(16) of the Act, the Secretary
                                                Sanctioned Entities                                        We propose to amend this section in                may exclude any individual or entity
                                                  With regard to exclusions imposed                     two ways. First, it has come to OIG’s                 that knowingly makes or causes to be
                                                under section 1128(b)(15) of the Act, we                attention that a significant amount of                made any false statement, omission, or
                                                propose clarifying the circumstances                    the health education-related financial                misrepresentation of a material fact in
                                                pertaining to the length of exclusion                   assistance available to physicians,                   any application, agreement, bid, or
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                imposed on individuals with ownership                   dentists, nurses, and other health care               contract to participate or enroll as a
                                                or control interests in sanctioned                      professionals from HHS is in the form                 provider of services or supplier under a
                                                entities to make the regulations more                   of loan repayment programs (LRP).                     Federal health care program.
                                                consistent with the statute. Specifically,              Under these programs, some of which                   Accordingly, we propose adding a new
                                                we propose amending § 1001.1051(c)(1)                   are administered by the Indian Health                 section at § 1001.1751 entitled ‘‘Making
                                                to state that the length of the                         Service, the National Health Service                  false statements or misrepresentation of
                                                individual’s exclusion will be for the                  Corps, and the National Institutes of                 material facts.’’ Under this proposal, we
                                                same period as that of the sanctioned                   Health (NIH), a health care professional              would determine whether to impose an


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00008   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                            26817

                                                exclusion under this section on the                     would remove references to the                           While the statute was designed to
                                                basis of information from various                       administrator of State health care                    provide some protection to Medicare
                                                sources, including, but not limited to,                 programs and replace them with the                    enrollees who received items or services
                                                the Centers for Medicare & Medicaid                     administrator of ‘‘Federal health care                from a physician not knowing that the
                                                Services (CMS), Medicaid State                          programs.’’ In addition, we would                     physician was excluded, we realize that
                                                agencies, fiscal agents or contractors,                 amend § 1001.1801 to reflect the                      the practical reach of the statute is quite
                                                private insurance companies, State or                   statutory change in MMA, which allows                 limited since enrollees rarely submit
                                                local licensing or certification                        waiver requests to be made on behalf of               claims directly to Medicare. Instead,
                                                authorities, and law enforcement                        individuals or entities excluded under                claims are normally submitted by
                                                agencies. In determining the period of                  sections 1128(a)(1), (a)(3), or (a)(4) of the         providers or suppliers, who then receive
                                                exclusion, we propose to consider what                  Act. Lastly, we would amend                           reimbursement directly from Medicare
                                                the repercussions of the false statement                § 1001.1801 to reflect that a Federal                 contractors. We are aware that Part D
                                                are and whether the individual or entity                health care program administrator may                 enrollees have at times been unable to
                                                has a documented history of criminal,                   request a waiver if the administrator                 refill prescriptions written by an
                                                civil, or administrative wrongdoing.                    determined that the exclusion would                   excluded physician when the enrollee
                                                                                                        impose a hardship on any beneficiaries.               was unaware of the exclusion. However,
                                                1001.1801 Expansion of Waiver
                                                                                                        Finally, we propose removing
                                                Provisions in MMA and ACA                                                                                     since the pharmacy, not the enrollee, is
                                                                                                        § 1001.1801(g) as it is no longer
                                                   Prior to MMA, OIG could consider                                                                           submitting the claim for reimbursement
                                                                                                        applicable.
                                                waiver requests made under section                                                                            to the Medicare Part D plan sponsor, we
                                                1128(c)(3)(B) of the Act and § 1001.1801                1001.1901 Scope and Effect of                         believe that section 1862(e)(1)(B) bars
                                                of the regulations for exclusions                       Exclusion                                             Medicare payments to the pharmacy for
                                                imposed under section 1128(a)(1) of the                    Section 1862(e)(1) of the Act (42                  items prescribed by an excluded
                                                Act if the Secretary determined that the                U.S.C. 1395y(e)(1)) states that ‘‘[n]o                physician after a reasonable time period
                                                individual or entity was the sole                       payment may be made under this title                  after notice to the pharmacy of the
                                                community physician or sole source of                   with respect to any item or service . . .             physician’s exclusion. This statutory
                                                essential specialized services in a                     furnished—(A) by an individual or                     prohibition appears to apply regardless
                                                community. Congress originally limited                  entity during the period when such                    of whether the enrollee is aware of the
                                                the possibility of waiver to those                      individual or entity is excluded . . .                exclusion. We realize that there are
                                                excluded under section 1128(a)(1)                       from participation in the program under               times when an enrollee whose
                                                because the only other mandatory                        this title; or (B) at the medical direction           prescription was written by a physician
                                                exclusion authority was section                         or on the prescription of a physician                 who was subsequently excluded may
                                                1128(a)(2), which applied to convictions                during the period when he is excluded                 urgently need a prescription refill (for
                                                related to patient abuse or neglect. The                . . . from participation in the program               example, for blood pressure medication
                                                legislative history indicates that                      under this title and when the person                  or insulin) and may be unable to see
                                                Congress did not intend for exclusions                  furnishing such item or service knew or               another physician quickly. We are
                                                imposed under section 1128(a)(2) to be                  had reason to know of the exclusion                   concerned that in some cases, the
                                                waived.                                                 (after a reasonable time period after                 resulting delay in getting medication
                                                   HIPAA added sections 1128(a)(3) and                  notice has been furnished to the                      could pose a risk to the enrollee’s
                                                (a)(4) of the Act, two new 5-year                       person).’’ We propose to renumber                     health. For this reason, we are soliciting
                                                mandatory exclusion authorities.                        § 1001.1901(b) to more closely track the              comments on how, within the law, we
                                                Section 949 of MMA updated the waiver                   numbering of section 1862(e)(1) of the                could craft a regulation that would
                                                provision of the Act to allow waiver                    Act.                                                  protect the enrollees in this limited
                                                requests for exclusions under sections                     We also propose to amend                           circumstance.
                                                1128(a)(3) and 1128(a)(4) of the Act. In                § 1001.1901(c) to make it more
                                                addition, section 949 of MMA permitted                  consistent with section 1862(e)(2) of the             1001.2001(b) Opportunity To Present
                                                the administrator of a Federal health                   Act. Section 1862(e)(2) authorizes CMS                Oral Argument
                                                care program who determines that the                    to pay claims submitted by a Medicare
                                                exclusion would impose a hardship on                    enrollee, if otherwise payable, when the                 We propose allowing individuals or
                                                a Medicare beneficiary to request a                     items or services are furnished by an                 entities whom OIG proposes to exclude
                                                waiver. Section 6402(k) of ACA                          excluded individual if the enrollee does              under the newly enacted section
                                                amended this hardship provision to                      not know or have reason to know of the                1128(b)(16) of the Act to request an
                                                permit the administrator of a Federal                   exclusion. The statute requires Medicare              opportunity to present oral argument to
                                                health care program to request a waiver                 to notify the enrollee and not to pay                 an OIG official prior to imposition of the
                                                if the administrator determines that                    claims after a reasonable time after such             exclusion. This process is currently
                                                exclusion would impose a hardship on                    notification. By its terms, the statute               available to individuals who are
                                                any beneficiary eligible to receive items               applies this exception to ‘‘individual[s]             considered for exclusion under section
                                                or services under a Federal health care                 eligible for benefits under this title.’’             1128(b)(6) of the Act and is set forth at
                                                program, thus removing MMA’s                            The current regulation, § 1001.1901(c),               § 1001.2001(b). Section 1128(b)(16) of
                                                requirement that an exclusion could be                  limits this payment exception to                      the Act is similar to section 1128(b)(6)
                                                waived only if it imposed a hardship on                 enrollees in Medicare Part B. This is                 of the Act in that it requires OIG to make
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                Medicare beneficiaries.                                 most likely because at the time the                   factual findings or determinations;
                                                   The regulations have not been revised                regulation was promulgated, Parts C and               therefore, we propose to also allow
                                                since before the enactment of MMA. In                   D of Medicare had not been enacted and                these individuals and entities to present
                                                accordance with section 949 of MMA                      because enrollees do not submit claims                oral argument. For this reason, we
                                                and section 6402(k) of ACA, we propose                  under Medicare Part A. We propose to                  propose to amend § 1001.2001(b) to add
                                                to revise § 1001.1801 to reflect these                  amend the regulation to make it                       a reference to § 1001.1751, the proposed
                                                changes. With respect to individuals                    applicable to enrollees in Parts C and D,             regulation section for section
                                                authorized to make a waiver request, we                 as well as Part B.                                    1128(b)(16) of the Act.


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00009   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26818                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                1001.2001–1001.2003 Notice of Intent                       As a result of these changes,                       caused claims to be submitted while
                                                To Exclude and Notice of Exclusion                      § 1001.2001(c) would read as follows:                  excluded.
                                                                                                        ‘‘(c) Exception. If OIG proposes to
                                                  Under the current regulations, when                                                                          1001.3005 Withdrawal of Exclusion
                                                                                                        exclude an individual or entity under
                                                OIG proposes to exclude an individual                   the provisions of §§ 1001.901, 1001.951,                 We propose clarifying that OIG will
                                                or entity under sections 1128(b)(7),                    1001.1301, 1001.1401, 1001.1601, or                    withdraw exclusions that are derivative
                                                1842(j)(1)(D)(iv) (42 U.S.C.                            1001.1701 of this part, paragraph (a)                  of convictions that are later reversed or
                                                1395u(j)(1)(D)(iv)), or 1842(k)(1) of the               will not apply.’’                                      vacated on appeal. The reinstatement
                                                Act, OIG is required to send both a                                                                            procedures currently provide for
                                                written notice of its intent to exclude                 1001.2004–1001.2006             Notice of              reinstatement in such situations, but our
                                                under § 1001.2001 and a notice of                       Exclusion by HHS                                       proposed change to § 1001.3005(a)
                                                proposal under § 1001.2003. The notice                                                                         would make clear that these
                                                                                                           We propose clarifying that HHS will
                                                of intent to exclude and the notice of                                                                         reinstatements would be the result of
                                                                                                        notify State agencies, State licensing
                                                proposed exclusion both allow the                                                                              OIG’s withdrawal of the exclusion.
                                                                                                        agencies, and the public about the
                                                individual or entity to respond to OIG
                                                                                                        exclusion actions it takes. In light of the            3. Changes to Part 1002
                                                with written argument concerning
                                                                                                        following proposed revision requiring
                                                whether the exclusion is warranted                                                                             1002.1 Scope and Purpose
                                                                                                        indirect providers, such as companies
                                                before the exclusion goes into effect.                                                                           We propose to revise the list of
                                                                                                        that manufacture or distribute
                                                Because the notice of proposed                                                                                 authorities currently at § 1002.1 to
                                                                                                        pharmaceuticals or devices, to notify
                                                exclusion allows the individual or                                                                             clarify the statutory basis and scope of
                                                                                                        their customers of their exclusion, we
                                                entity to request a hearing with an ALJ,                                                                       these regulations. In addition, we
                                                                                                        propose clarifying that §§ 1001.2004
                                                we believe it would be sufficient in                                                                           propose to add a new § 1002.2 to
                                                                                                        through 1001.2006 pertain to notice by
                                                these cases for OIG to issue only a                                                                            identify related Federal regulations that
                                                                                                        HHS. Therefore, we propose renaming
                                                notice of proposed exclusion. As a                                                                             establish disclosure requirements for
                                                                                                        the headings to include the phrase
                                                result, we propose modifying                                                                                   providers and State agencies and
                                                                                                        ‘‘Notice . . . by HHS.’’
                                                § 1001.2001 to eliminate the                                                                                   exclusion requirements for managed
                                                requirement that OIG send a written                     1001.3001         Reinstatement Procedures             care organizations. This would require a
                                                notice of intent to exclude prior to                                                                           renumbering of the current §§ 1002.2
                                                                                                          Earlier in the preamble, we discussed
                                                sending a notice of proposal to exclude.                                                                       and 1002.3 as §§ 1002.3 and 1002.4,
                                                                                                        our proposal to add, at § 1001.501(b)
                                                Correspondingly, we would add                                                                                  respectively. Finally, we propose to
                                                                                                        and § 1001.501(c), early reinstatement
                                                §§ 1001.901, 1001.951, 1001.1601, and                                                                          simplify the description of Federal
                                                                                                        procedures for individuals excluded
                                                1001.1701, the applicable regulation                                                                           health care programs in § 1002.3(a) by
                                                                                                        under section 1128(b)(4) of the Act. We
                                                sections pertaining to these exclusions,                                                                       removing the reference to Medicare and
                                                                                                        therefore propose to add references to
                                                to the list of exceptions to the notice of                                                                     Medicaid, because both programs are
                                                                                                        these regulation sections to the
                                                intent to exclude in § 1001.2001(c).                                                                           included in the definition of ‘‘Federal
                                                                                                        reinstatement procedures at
                                                  In addition, consistent with                          § 1001.3001(a)(1) to accurately reflect all            health care program.’’
                                                longstanding practice, OIG will                         reinstatement procedures. Lastly, we
                                                continue to mail the notices of intent to                                                                      1002.4 Disclosure by Providers and
                                                                                                        propose renumbering § 1001.3001.                       State Medicaid Agencies
                                                exclude and all other notices relating to               Currently, subparagraphs (3) and (4) are
                                                the imposition of exclusion via first-                  placed under paragraph (a), which                         We propose to renumber § 1002.3 as
                                                class mail.                                             relates to timing of reinstatement, but                § 1002.4 and amend it to clarify that the
                                                  Section 1001.2001 currently uses the                  subparagraphs (3) and (4) relate to                    Medicaid agency may refuse to enter
                                                word ‘‘proposes’’ in connection with the                method of request. We propose                          into or renew a provider agreement
                                                notice of intent to exclude. We propose                 redesignating current subparagraphs (3)                because of a criminal conviction related
                                                clarifying the language in § 1001.2001 to               and (4) as new paragraphs (b) and (c)                  to any Federal health care program
                                                make it clear that the notice of intent to              and redesignating the current paragraph                listed at section 1128 of the Act, not just
                                                exclude under that paragraph is                         (b) as paragraph (d).                                  to Medicare, Medicaid, or Title XX
                                                different from the notice of proposal to                                                                       programs.
                                                exclude under § 1001.2003 by replacing                  1001.3002         Criteria for Reinstatement
                                                                                                                                                               1002.5 State Plan Requirement
                                                the word proposes with the word                           We propose to clarify that the factors
                                                intends.                                                                                                         We propose to move the provisions
                                                                                                        OIG will consider for a reinstatement                  currently found in § 1002.100 to a new
                                                  Finally, we propose to begin sending                  determination, set forth at                            section, § 1002.5.
                                                notices of intent to exclude individuals                § 1001.3002(b), will be considered
                                                pursuant to section 1128(b)(14) of the                  under § 1001.3002(a). We propose to                    1002.6 Payment Prohibitions
                                                Act. Section 1128(b)(14) provides that in               add the following underlined language                    We propose to move the provisions
                                                determining whether to exclude a                        to § 1001.3002(b): ‘‘In making the                     currently found in § 1002.211 to a new
                                                physician, OIG will consider access of                  reinstatement determination described                  section, § 1002.6, and to rename the new
                                                beneficiaries to physician services.                    in paragraph (a) of this section, OIG will             section ‘‘Payment Prohibitions,’’ which
                                                Thus, to allow physicians the                           consider. . . .’’ In addition, we propose              more accurately describes its contents.
                                                opportunity to provide information                      amending the current language in
                                                                                                                                                               1002.6(a) Conforming Change To
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                about beneficiary access to physician                   § 1001.3002(b)(6) and renumbering it as
                                                services before the proposed exclusion                  § 1001.3002(b)(5) to clarify that even                 Mirror Scope and Effect of Exclusion
                                                goes into effect, we propose removing                   when an individual or entity has                       Section
                                                the reference to § 1001.1501, the                       received a program provider number                        We propose to amend new § 1002.6(a)
                                                applicable regulation section pertaining                while excluded, OIG, in deciding                       to clarify that payment is prohibited for
                                                to exclusions under section 1128(b)(14)                 whether to reinstate the individual or                 items or services furnished at the
                                                of the Act, from the list of exceptions in              entity, may consider the fact that the                 medical direction or on the prescription
                                                § 1001.2001(c).                                         individual or entity submitted claims or               of an excluded physician or other


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00010    Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                           26819

                                                authorized individual. This revision                    investigations of potential cases                     Regulatory Flexibility Act
                                                conforms more closely to the language                   involving the exclusion statute.                         The RFA and the Small Business
                                                in revised § 1001.1901(b) defining the                                                                        Regulatory Enforcement and Fairness
                                                scope and effect of exclusion.                          III. Regulatory Impact Statement
                                                                                                                                                              Act of 1996, which amended the RFA,
                                                Subpart B—Rename as ‘‘State                               We have examined the impact of this                 require agencies to analyze options for
                                                Exclusion of Certain Managed Care                       proposed rule as required by Executive                regulatory relief of small businesses. For
                                                Entities’’                                              Order 12866, the Regulatory Flexibility               purposes of the RFA, small entities
                                                                                                        Act (RFA) of 1980, the Unfunded                       include small businesses, nonprofit
                                                  We propose to rename Subpart B of                     Mandates Reform Act of 1995, and                      organizations, and Government
                                                part 1002 (currently ‘‘Mandatory                        Executive Order 13132.                                agencies. Most providers are considered
                                                Exclusion’’) as ‘‘State Exclusion of                                                                          small entities by having revenues of $5
                                                Certain Managed Care Entities’’ to                      Executive Order Nos. 12866 and 13563                  million to $25 million or less in any one
                                                clarify that it pertains only to State                                                                        year. For purposes of the RFA, most
                                                                                                           Executive Orders 12866 and 13563
                                                exclusion of certain managed care                                                                             physicians and suppliers are considered
                                                                                                        direct agencies to assess all costs and
                                                entities and not more broadly to                                                                              small entities.
                                                mandatory exclusions in general.                        benefits of available regulatory
                                                                                                        alternatives and, if regulations are                     The aggregate economic impact of the
                                                1002.203 Mandatory Exclusion                            necessary, to select regulatory                       exclusion provisions on small entities
                                                                                                        approaches that maximize net benefits                 would be minimal, directly affecting
                                                   We propose to clarify that Federal                                                                         only those limited number of excluded
                                                regulations require States to exclude                   (including potential economic,
                                                                                                        environmental, public health and safety               individuals and entities that are sole
                                                managed care organizations or entities                                                                        community physicians or sole sources
                                                that have ownership or control interests                effects; distributive impacts; and
                                                                                                        equity). Executive Order 13563 is                     of essential specialized services in the
                                                that could subject them to Federal                                                                            community. We believe any resulting
                                                exclusion by OIG. We also propose to                    supplemental to and reaffirms the
                                                                                                                                                              impact would be a positive one on the
                                                update § 1002.203 by replacing the term                 principles, structures, and definitions
                                                                                                                                                              health care community.
                                                ‘‘HMO’’ with the term ‘‘managed care                    governing regulatory review as
                                                                                                                                                                 In summary, we have concluded that
                                                organization’’ to more closely conform                  established in Executive Order 12866. A
                                                                                                                                                              this proposed rule should not have a
                                                to the language of the Act at section                   regulatory impact analysis must be
                                                                                                                                                              significant impact on the operations of
                                                1902(p)(2) (42 U.S.C. 1396a(p)(2)). The                 prepared for major rules with
                                                                                                                                                              a substantial number of small providers
                                                BBA changed the terminology in Title                    economically significant effects, i.e.,
                                                                                                                                                              and that a regulatory flexibility analysis
                                                XIX, using the term ‘‘managed care                      $100 million or more in any given year.
                                                                                                                                                              is not required for this rulemaking.
                                                organization’’ to refer to entities                     This is not a major rule as defined at 5
                                                previously labeled ‘‘health maintenance                 U.S.C. 804(2); it is not economically                 Unfunded Mandates Reform Act
                                                organizations’’(HMOs).                                  significant because it does not reach that               Section 202 of the Unfunded
                                                                                                        economic threshold.                                   Mandates Reform Act of 1995, Public
                                                Subpart C—Rename as ‘‘Procedures
                                                for State-Initiated Exclusions’’                           This proposed rule is designed to                  Law 104–4, requires that agencies assess
                                                                                                        propose implementation of new                         anticipated costs and benefits before
                                                   We propose to rename Subpart C                       statutory provisions, including new                   issuing any rule that may result in
                                                (currently ‘‘Permissive Exclusions’’) as                exclusion authorities. It is also designed            expenditures in any one year by State,
                                                ‘‘Procedures for State-Initiated                        to clarify the intent of existing statutory           local, or tribal Governments, in the
                                                Exclusions’’ to clarify that it pertains to             requirements. The vast majority of                    aggregate, or by the private sector, of
                                                procedures for State-initiated                          providers and Federal health care                     $110 million. As indicated above, these
                                                exclusions.                                             programs would be minimally                           proposed revisions comport with
                                                4. Changes to Part 1006                                 impacted, if at all, by these proposed                statutory amendments and clarify
                                                                                                        revisions.                                            existing law. As a result, we believe that
                                                1006.1 Testimonial Subpoena                                                                                   there would be no significant costs
                                                Authority in Section 1128 Cases                            The proposed changes to the
                                                                                                        exclusion regulations would have little               associated with these proposed
                                                  Section 6402(e) of ACA granted the                    economic impact. On average, OIG                      revisions that would impose any
                                                Secretary testimonial subpoena                          excludes approximately 3,500 health                   mandates on State, local, or tribal
                                                authority in investigations of section                  care providers per year. Historically,                Governments or the private sector, that
                                                1128 cases at section 1128(f)(4) of the                 fewer than 10 waivers of exclusion have               will result in an expenditure of $110
                                                Act. Prior to the enactment of ACA,                                                                           million or more (adjusted for inflation)
                                                                                                        been granted in any given year, and
                                                OIG’s testimonial subpoena authority                                                                          per year and that a full analysis under
                                                                                                        fewer than two falls affirmative
                                                was limited to cases in which OIG was                                                                         the Unfunded Mandates Reform Act is
                                                                                                        exclusion cases are filed in court. Thus,
                                                pursuing CMPs under section 1128A of                                                                          not necessary.
                                                                                                        we believe that any aggregate economic
                                                the Act. The expanded testimonial
                                                                                                        effect of the proposed exclusion                      Executive Order 13132
                                                subpoena authority gives OIG an
                                                                                                        regulatory provisions would be                           Executive Order 13132, Federalism,
                                                additional investigative tool under
                                                                                                        minimal. Additionally, over the past 3                establishes certain requirements that an
                                                section 1128 of the Act for pursuing
                                                                                                        fiscal years, OIG has on average                      agency must meet when it promulgates
                                                exclusions for conduct such as
                                                                                                        returned approximately $16.6 million
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                submitting improper claims.                                                                                   a rule that imposes substantial direct
                                                  In accordance with section 6402(e) of                 per year to the Medicare Trust Fund.                  requirements or costs on State and local
                                                ACA, we propose to revise § 1006.1 of                   This return under the $100 million                    Governments, preempts State law, or
                                                these proposed regulations to include a                 threshold.                                            otherwise has Federalism implications.
                                                reference to the newly enacted section                     Accordingly, we believe that the                   In reviewing this rule under the
                                                1128(f)(4) of the Act and add ‘‘section                 likely aggregate economic effect of these             threshold criteria of Executive Order
                                                1128’’ to § 1006.1(b) to reflect that OIG               regulations would be significantly less               13132, we have determined that this
                                                may issue testimonial subpoenas in                      than $100 million.                                    proposed rule would not significantly


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00011   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26820                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                affect the rights, roles, and                           provision or supply of items and                      §§ 1000.20 and 1000.30     [Removed]
                                                responsibilities of State or local                      services by individuals or entities                   ■ 3. Sections 1000.20 and 1000.30 are
                                                Governments.                                            (including items and services provided                removed.
                                                                                                        or supplied by them, but manufactured,
                                                IV. Paperwork Reduction Act                                                                                   PART 1001—PROGRAM INTEGRITY—
                                                                                                        ordered, or prescribed by another
                                                  These proposed changes to Parts                       individual or entity) who request or                  MEDICARE AND STATE HEALTH
                                                1000, 1001, 1002 and 1006 impose no                     receive payment from Medicare,                        CARE PROGRAMS
                                                new reporting requirements or                           Medicaid, or other Federal health care
                                                collections of information. Therefore, a                                                                      ■  5. The authority citation for part 1001
                                                                                                        programs.                                             is revised to read as follows:
                                                Paperwork Reduction Act review is not                   *      *    *      *    *
                                                required.                                                                                                       Authority: 42 U.S.C. 1302; 1320a–7;
                                                                                                           Exclusion means that items and                     1320a–7b; 1395u(j); 1395u(k); 1395w–
                                                List of Subjects                                        services furnished, ordered, or                       104(e)(6), 1395y(d); 1395y(e);
                                                                                                        prescribed by a specified individual or               1395cc(b)(2)(D), (E), and (F); 1395hh;
                                                42 CFR Part 1000                                        entity will not be reimbursed under                   1842(j)(1)(D)(iv), 1842(k)(1), and sec. 2455,
                                                  Administrative practice and                           Medicare, Medicaid, or any other                      Pub. L. 103–355, 108 Stat. 3327 (31 U.S.C.
                                                procedure, Grant programs—health,                       Federal health care programs until the                6101 note).
                                                Health facilities, Health professions,                  individual or entity is reinstated by the             ■  6. Section 1001.2 is amended by:
                                                Medicaid, Medicare.                                     OIG.                                                  ■  a. Adding introductory text;
                                                                                                        *      *    *      *    *                             ■  b. Adding a definition of ‘‘Agent’’;
                                                42 CFR Part 1001
                                                                                                           Furnished refers to items or services              ■  c. Redesignating paragraphs (a) and
                                                  Administrative practice and                           provided or supplied, directly or                     (b) under ‘‘Controlled substance’’ as
                                                procedure, Fraud, Grant programs—                       indirectly, by any individual or entity.              paragraphs (1) and (2), paragraphs (a)
                                                health, Health facilities, Health                                                                             through (d) under ‘‘Convicted’’ as
                                                                                                        *      *    *      *    *
                                                professions, Maternal and child health,                                                                       paragraphs (1) through (4) (and (a)(1)
                                                                                                           Indirectly, as used in the definition of
                                                Medicaid, Medicare.                                                                                           and (2) as (1)(i) and (ii));
                                                                                                        ‘‘furnished’’ in this section, means the
                                                                                                                                                              ■ d. Removing the definition of
                                                42 CFR Part 1002                                        provision or supply of items and
                                                                                                        services manufactured, distributed,                   ‘‘Exclusion’’;
                                                 Fraud, Grant programs—health,                                                                                ■ e. Adding definitions of ‘‘Immediate
                                                Health facilities, Health professions,                  supplied, or otherwise provided by
                                                                                                        individuals or entities that do not                   family member’’, ‘‘Indirect ownership
                                                Medicaid, Reporting and recordkeeping.                                                                        interest’’, ‘‘Managing employee’’,
                                                                                                        directly request or receive payment from
                                                42 CFR Part 1006                                        Medicare, Medicaid, or other Federal                  ‘‘Member of household’’;
                                                                                                                                                              ■ f. Removing the definition of ‘‘OIG’’;
                                                  Administrative practice and                           health care programs, but that provide
                                                                                                                                                              ■ g. Adding definitions of ‘‘Ownership
                                                procedure, Fraud, Investigations,                       items and services to providers,
                                                                                                                                                              interest’’ and ‘‘Ownership or control
                                                Penalties.                                              practitioners, or suppliers who request
                                                                                                                                                              interest’’; and
                                                                                                        or receive payment from these programs
                                                  Accordingly, 42 CFR parts 1000, 1001,                                                                       ■ h. Removing the definitions of ‘‘QIO’’
                                                                                                        for such items and services.
                                                1002, and 1006 are proposed to be                                                                             and ‘‘State health care program’’.
                                                amended as set forth below:                             *      *    *      *    *                                The additions read as follows:
                                                                                                           QIO means a quality improvement
                                                PART 1000—INTRODUCTION:                                 organization as that term is used in                  § 1001.2   Definitions.
                                                GENERAL DEFINITIONS                                     section 1152 of the Act (42 U.S.C.                       For purposes of this part:
                                                                                                        1320c-1) and its implementing                            Agent means any person who has
                                                ■ 1. The authority citation for part 1000               regulations.                                          express or implied authority to obligate
                                                continues to read as follows:                              Secretary means the Secretary of the               or act on behalf of an entity.
                                                    Authority: 42 U.S.C. 1320 and 1395hh.               Department or his or her designees.                   *     *      *     *    *
                                                ■  2. Section 1000.10 is amended by:                    *      *    *      *    *                                Immediate family member means a
                                                ■  a. Republishing the introductory text                   State includes the District of                     person’s husband or wife; natural or
                                                ■  b. Adding a definition of ‘‘ALJ’’;                   Columbia, Puerto Rico, the Virgin                     adoptive parent; child or sibling;
                                                ■  c. Revising the definition of                        Islands, Guam, American Samoa, the                    stepparent, stepchild, stepbrother or
                                                ‘‘Directly’’;                                           Northern Mariana Islands, and the Trust               stepsister; father-, mother-, daughter-,
                                                ■ d. Adding a definition of ‘‘Exclusion’’;              Territory of the Pacific Islands.                     son-, brother- or sister-in-law;
                                                ■ e. Revising the definitions of                           State health care program means:                   grandparent or grandchild; or spouse of
                                                ‘‘Furnished’’, ‘‘Indirectly’’, ‘‘QIO’’, and                (1) A State plan approved under Title              a grandparent or grandchild.
                                                ‘‘Secretary’’; and                                      XIX of the Act (Medicaid),                            *     *      *     *    *
                                                ■ f. Adding definitions of ‘‘State’’ and                   (2) Any program receiving funds                       Indirect ownership interest includes
                                                ‘‘State health care program’’.                          under Title V of the Act or from an                   an ownership interest through any other
                                                   The additions and revisions read as                  allotment to a State under such title                 entities that ultimately have an
                                                follows:                                                (Maternal and Child Health Services                   ownership interest in the entity in issue.
                                                                                                        Block Grant program),                                 (For example, an individual has a 10-
                                                § 1000.10    General definitions.                          (3) Any program receiving funds                    percent ownership interest in the entity
                                                   In this chapter, unless the context
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                                                                        under subtitle A of Title XX of the Act               at issue if he or she has a 20-percent
                                                indicates otherwise—                                    or from any allotment to a State under                ownership interest in a corporation that
                                                *      *     *    *     *                               such subtitle (Block Grants to States for             wholly owns a subsidiary that is a 50-
                                                   ALJ means an Administrative Law                      Social Services), or                                  percent owner of the entity in issue.)
                                                Judge.                                                     (4) A State child health plan approved                Managing employee means an
                                                *      *     *    *     *                               under Title XXI (Children’s Health                    individual (including a general
                                                   Directly, as used in the definition of               Insurance Program).                                   manager, business manager,
                                                ‘‘furnished’’ in this section, means the                *      *    *      *    *                             administrator or director) who exercises


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00012   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                              Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                           26821

                                                operational or managerial control over                    or services or is, or has ever been, an               misdemeanor offenses and the entire
                                                the entity or part thereof or directly or                 officer, a director, an agent or a                    amount of financial loss (both actual
                                                indirectly conducts the day-to-day                        managing employee of such an entity; or               loss and intended loss) to Medicare or
                                                operations of the entity or part thereof.                   (3) Is now, or was at the time of the               any other Federal, State, or local
                                                  Member of household means, with                         offense, employed in any capacity in the              governmental health care program due
                                                respect to a person, any individual with                  health care industry.                                 to the acts that resulted in the
                                                whom the person is sharing a common                       ■ 8. Section 1001.102 is amended by:                  conviction, and similar acts, is less than
                                                abode as part of a single family unit,                    ■ a. Republishing paragraph (b)                       $5,000;
                                                including domestic employees and                          introductory text;                                    *      *     *     *     *
                                                others who live together as a family                      ■ b. Revising paragraph (b)(1);                          (d) In the case of an exclusion under
                                                unit. A roomer or boarder is not                          ■ c. Removing paragraph (b)(7);                       this subpart, based on a conviction
                                                considered a member of household.                         ■ d. Redesignating paragraph (b)(8) as                occurring on or after August 5, 1997, an
                                                *     *      *    *      *                                paragraph (b)(7);                                     exclusion will be—
                                                  Ownership interest means an interest                    ■ e. Redesignating paragraph (b)(9) and                  (1) Not less than 10 years if the
                                                in:                                                       paragraph (b)(8) and revising it;                     individual has been convicted on one
                                                  (1) The capital, the stock, or the                      ■ f. Adding new paragraph (b)(9);                     previous occasion of one or more
                                                profits of the entity, or                                 ■ g. Republishing paragraph (c)                       offenses for which an exclusion may be
                                                  (2) Any mortgage, deed, trust or note,                  introductory text;                                    effected under section 1128(a) of the
                                                or other obligation secured in whole or                   ■ h. Revising paragraph (c)(1); and                   Act. (The aggravating and mitigating
                                                in part by the property or assets of the                  ■ i. Revising paragraph (d).                          factors in paragraphs (b) and (c) of this
                                                entity.                                                     The revisions read as follows:                      section can be used to impose a period
                                                  Ownership or control interest means,                                                                          of time in excess of the 10-year
                                                                                                          § 1001.102    Length of exclusion.
                                                with respect to an entity, a person who                                                                         mandatory exclusion) or
                                                  (1) Has a direct or an indirect                         *     *      *     *    *
                                                                                                                                                                   (2) Permanent if the individual has
                                                ownership interest (or any combination                      (b) Any of the following factors may
                                                                                                                                                                been convicted on two or more previous
                                                thereof) of 5 percent or more in the                      be considered to be aggravating and a
                                                                                                                                                                occasions of one or more offenses for
                                                entity,                                                   basis for lengthening the period of
                                                                                                                                                                which an exclusion may be effected
                                                  (2) Is the owner of a whole or part                     exclusion—
                                                                                                                                                                under section 1128(a) of the Act.
                                                interest in any mortgage, deed of trust,                    (1) The acts resulting in the
                                                                                                                                                                ■ 9. Section 1001.201 is amended by:
                                                note, or other obligation secured (in                     conviction, or similar acts, caused, or
                                                                                                                                                                ■ a. Republishing paragraph (b)(1)
                                                whole or in part) by the entity or any of                 were intended to cause, a financial loss
                                                                                                                                                                introductory text;
                                                the property assets thereof, if such                      to a government agency or program or
                                                                                                                                                                ■ b. Revising paragraphs (b)(2)(i) and
                                                interest is equal to or exceeds 5 percent                 to one or more other entities of $15,000
                                                                                                                                                                (vi);
                                                of the total property and assets of the                   or more. (The entire amount of financial
                                                                                                                                                                ■ c. Adding paragraph (b)(2)(vii);
                                                entity;                                                   loss to such government agencies or
                                                                                                                                                                ■ d. Republishing paragraph (b)(3)
                                                  (3) Is an officer or a director of the                  programs or to other entities, including
                                                                                                          any amounts resulting from similar acts               introductory text;
                                                entity;                                                                                                         ■ e. Revising paragraphs (b)(3)(i)
                                                  (4) Is a partner in the entity if the                   not adjudicated, will be considered
                                                                                                          regardless of whether full or partial                 through (iii); and
                                                entity is organized as a partnership;                                                                           ■ f. Removing paragraph (b)(3)(iv).
                                                  (5) Is an agent of the entity; or                       restitution has been made);
                                                                                                                                                                   The revisions and addition read as
                                                  (6) Is a managing employee of the                       *     *      *     *    *                             follows:
                                                entity.                                                     (7) The individual or entity has
                                                *     *      *    *      *                                previously been convicted of a criminal               § 1001.201 Conviction relating to program
                                                ■ 7. Section 1001.101 is amended by                       offense involving the same or similar                 or health care fraud.
                                                republishing the introductory text and                    circumstances;                                        *      *     *     *     *
                                                by revising paragraph (d) to read as                        (8) The individual or entity has been                  (b) Length of exclusion. (1) An
                                                follows:                                                  convicted of other offenses besides                   exclusion imposed in accordance with
                                                                                                          those that formed the basis for the                   this section will be for a period of 3
                                                § 1001.101       Basis for liability.                     exclusion; or                                         years, unless aggravating or mitigating
                                                   The OIG will exclude any individual                      (9) The individual or entity has been               factors listed in paragraphs (b)(2) and
                                                or entity that—                                           the subject of any other adverse action               (b)(3) of this section form a basis for
                                                *      *    *     *     *                                 by any Federal, State or local                        lengthening or shortening that period.
                                                   (d) Has been convicted, under Federal                  government agency or board if the                        (2) Any of the following factors may
                                                or State law, of a felony that occurred                   adverse action is based on the same set               be considered to be aggravating and a
                                                after August 21, 1996, relating to the                    of circumstances that serves as the basis             basis for lengthening the period of
                                                unlawful manufacture, distribution,                       for the imposition of the exclusion.                  exclusion—
                                                prescription or dispensing of a                           *     *      *     *    *                                (i) The acts resulting in the
                                                controlled substance, as defined under                      (c) Only if any of the aggravating                  conviction, or similar acts, caused or
                                                Federal or State law. This applies to any                 factors set forth in paragraph (b) of this            reasonably could have been expected to
                                                individual or entity that—                                section justifies an exclusion longer                 cause, a financial loss of $15,000 or
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                   (1) Is now, or was at the time of the                  than 5 years, may mitigating factors be               more to a government agency or
                                                offense, a health care practitioner,                      considered as a basis for reducing the                program or to one or more other entities
                                                provider, or supplier or furnished or                     period of exclusion to no less than 5                 or had a significant financial impact on
                                                furnishes items or services;                              years. Only the following factors may be              program beneficiaries or other
                                                   (2) Holds, or held at the time of the                  considered mitigating—                                individuals. (The entire amount of
                                                offense, a direct or an indirect                            (1) In the case of an exclusion under               financial loss will be considered,
                                                ownership or control interest in an                       § 1001.101(a), whether the individual or              including any amounts resulting from
                                                entity that furnished or furnishes items                  entity was convicted of three or fewer                similar acts not adjudicated, regardless


                                           VerDate Mar<15>2010     14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00013   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26822                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                of whether full or partial restitution has              interference with or obstruction of any                  (A) Others being convicted or
                                                been made);                                             investigation or audit related to:                    excluded from Medicare, Medicaid and
                                                *       *    *     *    *                                  (1) Any offense described in                       all other Federal health care programs;
                                                   (vi) Whether the individual or entity                § 1001.101 or § 1001.201; or                             (B) Additional cases being
                                                has been convicted of other offenses                       (2) The use of funds received, directly            investigated or reports being issued by
                                                besides those that formed the basis for                 or indirectly, from any Federal health                the appropriate law enforcement agency
                                                the exclusion; or                                       care program (as defined in section                   identifying program vulnerabilities or
                                                   (vii) Whether the individual or entity               1128(B)(f) of the Act).                               weaknesses; or
                                                has been the subject of any other                          (b) Length of exclusion. (1) An                       (C) The imposition of a civil money
                                                adverse action by any Federal, State, or                exclusion imposed in accordance with                  penalty against others.
                                                                                                        this section will be for a period of 3                ■ 11. Section 1001.401 is amended by:
                                                local government agency or board if the
                                                                                                        years, unless aggravating or mitigating               ■ a. Revising paragraph (a);
                                                adverse action is based on the same set                                                                       ■ b. Revising paragraphs (c)
                                                of circumstances that serves as the basis               factors listed in paragraphs (b)(2) and
                                                                                                        (b)(3) of this section form the basis for             introductory text and (c)(2)(iv) and (v);
                                                for the imposition of the exclusion.                                                                          ■ c. Adding paragraph (c)(2)(vi); and
                                                   (3) Only the following factors may be                lengthening or shortening that period.
                                                                                                           (2) Any of the following factors may               ■ d. Revising paragraph (c)(3).
                                                considered as mitigating and a basis for                                                                        The revisions and addition read as
                                                reducing the period of exclusion—                       be considered to be aggravating and a
                                                                                                        basis for lengthening the period of                   follows:
                                                   (i) The individual or entity was
                                                convicted of three or fewer offenses, and               exclusion—                                            § 1001.401 Conviction relating to
                                                                                                           (i) The interference or obstruction                controlled substances.
                                                the entire amount of financial loss (both
                                                                                                        caused the expenditure of significant                   (a) Circumstance for exclusion. The
                                                actual loss and reasonably expected
                                                                                                        additional time or resources;                         OIG may exclude an individual or entity
                                                loss) to a government agency or program
                                                                                                           (ii) The interference or obstruction               convicted under Federal or State law of
                                                or to other individuals or entities due to
                                                                                                        had a significant adverse mental,                     a misdemeanor relating to the unlawful
                                                the acts that resulted in the conviction
                                                                                                        physical or financial impact on program               manufacture, distribution, prescription,
                                                and similar acts is less than $5,000;
                                                                                                        beneficiaries or other individuals or on              or dispensing of a controlled substance,
                                                   (ii) The record in the criminal
                                                                                                        the Medicare, Medicaid or other Federal               as defined under Federal or State law.
                                                proceedings, including sentencing
                                                                                                        health care programs;                                 This section applies to any individual or
                                                documents, demonstrates that the court
                                                determined that the individual had a                    *       *    *     *     *                            entity that—
                                                mental, an emotional, or a physical                        (vi) Whether the individual or entity                (1) Is now, or was at the time of the
                                                condition, before or during the                         has been convicted of other offenses                  offense, a health care practitioner,
                                                commission of the offense, that reduced                 besides those that formed the basis for               provider, or supplier or furnished or
                                                the individual’s culpability; or                        the exclusion;                                        furnishes items or services;
                                                   (iii) The individual’s or entity’s                      (vii) Whether the individual or entity               (2) Holds, or held at the time of
                                                cooperation with Federal or State                       has been the subject of any other                     offense, a direct or indirect ownership
                                                officials resulted in—                                  adverse action by any Federal, State or               or control interest in an entity that is a
                                                   (A) Others being convicted or                        local government agency or board if the               health care provider or supplier; or
                                                excluded from Medicare, Medicaid, or                    adverse action is based on the same set                 (3) Is now, or was at the time of the
                                                any other Federal health care program;                  of circumstances that serves as the basis             offense, employed in any capacity in the
                                                   (B) Additional cases being                           for the imposition of the exclusion; or               health care industry.
                                                investigated or reports being issued by                    (viii) The acts resulting in the                   *      *     *     *    *
                                                the appropriate law enforcement agency                  conviction, or similar acts, caused, or                 (c) Length of exclusion. (1) An
                                                identifying program vulnerabilities or                  reasonably could have been expected to                exclusion imposed in accordance with
                                                weaknesses; or                                          cause, a financial loss of $15,000 or                 this section will be for a period of 3
                                                   (C) The imposition of a civil money                  more to a government agency or                        years unless aggravating or mitigating
                                                penalty against others.                                 program or to one or more other entities              factors listed in paragraphs (c)(2) and (3)
                                                ■ 10. Section 1001.301 is amended by:
                                                                                                        or had a significant financial impact on              of this section form a basis for
                                                ■ a. Revising the section heading                       program beneficiaries or other                        lengthening or shortening that period.
                                                ■ b. Revising paragraph (a);                            individuals. (The entire amount of                      (2) * * *
                                                ■ c. Republishing paragraphs (b)(1) and                 financial loss or intended loss identified              (iv) Whether the individual or entity
                                                (2);                                                    in the investigation or audit will be                 has a documented history of criminal,
                                                ■ d. Revising paragraphs (b)(2)(i), (ii),               considered, including any amounts                     civil, or administrative wrongdoing;
                                                and (vi);                                               resulting from similar acts not                         (v) Whether the individual or entity
                                                ■ e. Adding paragraphs (b)(2)(vii) and                  adjudicated, regardless of whether full               has been convicted of other offenses
                                                (viii);                                                 or partial restitution has been made).                besides those that formed the basis for
                                                ■ f. Republishing the paragraph (b)(3)                     (3) Only the following factors may be              the exclusion; or
                                                introductory text;                                      considered to be mitigating and a basis                 (vi) Whether the individual or entity
                                                ■ g. Revising paragraphs (b)(3)(i) and                  for reducing the period of exclusion—                 has been the subject of any other
                                                (ii); and                                                  (i) The record of the criminal                     adverse action by any Federal, State or
                                                ■ h. Removing (b)(3)(iii).                              proceedings, including sentencing                     local government agency or board if the
                                                   The revisions and addition read as                   documents, demonstrates that the court                adverse action is based on the same set
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                follows:                                                determined that the individual had a                  of circumstances that serves as the basis
                                                                                                        mental, emotional, or physical                        for the imposition of the exclusion.
                                                § 1001.301 Conviction relating to                       condition, before or during the                         (3) Only the following factor may be
                                                obstruction of an investigation or audit.               commission of the offense, that reduced               considered to be mitigating and to be a
                                                  (a) Circumstance for exclusion. The                   the individual’s culpability or                       basis for shortening the period of
                                                OIG may exclude an individual or entity                    (ii) The individual’s or entity’s                  exclusion—Whether the individual’s or
                                                that has been convicted, under Federal                  cooperation with Federal or State                     entity’s cooperation with Federal or
                                                or State law, in connection with the                    officials resulted in—                                State officials resulted in—


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00014   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                             26823

                                                   (i) Others being convicted or excluded                  (iv) The benefits to the Federal health            accordance with § 1001.3001 of this part
                                                from Medicare, Medicaid and all other                   care programs and program beneficiaries               and the sole reason why the State or
                                                Federal health care programs;                           of early reinstatement;                               Federal health care program denied
                                                   (ii) Additional cases being                             (v) The risks to the Federal health care           reinstatement to that program is the
                                                investigated or reports being issued by                 programs and program beneficiaries of                 existing exclusion imposed by the OIG
                                                the appropriate law enforcement agency                  early reinstatement;                                  as a result of the original State or
                                                identifying program vulnerabilities or                     (vi) Any additional or pending license             Federal health care program action, the
                                                weaknesses; or                                          actions in the same State or in any other             OIG will consider a request for
                                                   (iii) The imposition of a civil money                State;                                                reinstatement.
                                                penalty against others.                                    (vii) Any ongoing investigations                   *     *     *     *      *
                                                ■ 12. Section 1001.501 is amended by                    involving the individual; and                         ■ 14. Section 1001.701 is amended by
                                                revising paragraphs (b)(1) and (2) and                     (viii) All the factors set forth in
                                                                                                                                                              revising the headings for paragraphs (a)
                                                adding paragraph (c) to read as follows:                § 1001.3002(b).
                                                                                                           (2) If an exclusion has been imposed               and (c) and revising paragraphs
                                                § 1001.501 License revocation or                        under this section and the individual                 (d)(2)(iv) and (d)(3) to read as follows:
                                                suspension.                                             does not have a valid health care license             § 1001.701 Excessive claims or furnishing
                                                *       *    *     *     *                              of any kind in any State, that individual             of unnecessary or substandard items and
                                                   (b) * * *                                            may request the OIG to consider                       services.
                                                   (1) Except as provided in paragraph                  whether he or she may be eligible for                   (a) Circumstance for exclusion. * * *
                                                (b)(2) of this section, an exclusion                    early reinstatement. The OIG will                     *     *    *     *     *
                                                imposed in accordance with this section                 consider the following factors in                       (c) Exceptions. * * *
                                                will not be for a period of time less than              determining whether a request for early                 (d) * * *
                                                the period during which an individual’s                 reinstatement under paragraph (c)(2)                    (2) * * *
                                                or entity’s license is revoked,                         will be granted:                                        (iv) The violation resulted in financial
                                                suspended, or otherwise not in effect as                   (i) The length of time the individual              loss to Medicare, Medicaid and any
                                                a result of, or in connection with, a State             has been excluded. The OIG will apply                 other Federal health care program of
                                                licensing agency action.                                a presumption against early                           $15,000 or more; or
                                                   (2) When an individual or entity has                 reinstatement under this paragraph
                                                been excluded under this section, the                   (c)(2) if the person has been excluded                *     *    *     *     *
                                                OIG will consider a request for                                                                                 (3) Only the following factor may be
                                                                                                        for less than 5 years;
                                                reinstatement in accordance with                           (ii) The circumstances that formed the             considered mitigating and a basis for
                                                § 1001.3001 if:                                         basis for the exclusion;                              reducing the period of exclusion—
                                                   (i) The individual or entity obtains the                (iii) Whether the individual has                   Whether there were few violations and
                                                license in the State where the license                  demonstrated that he or she has                       they occurred over a short period of
                                                was originally revoked, suspended,                      satisfactorily resolved any underlying                time.
                                                                                                        problem that caused or contributed to                 ■ 15. Section 1001.801 is amended by
                                                surrendered, or otherwise lost or
                                                   (ii) The individual meets the                        the basis for the initial licensing action;           revising the heading for paragraph (a),
                                                conditions for early reinstatement set                     (iv) The benefits to the Federal health            removing paragraph (c)(3)(ii), and
                                                forth in paragraph (c) of this section.                 care programs and program beneficiaries               redesignating paragraph (c)(3)(iii) as
                                                   (c) Consideration of early                           of early reinstatement;                               paragraph (c)(3)(ii).
                                                reinstatement. (1) If an individual or                     (v) The risks to the Federal health care             The revision reads as follows:
                                                entity that is excluded in accordance                   programs and program beneficiaries of                 § 1001.801 Failure of HMOs and CMPs to
                                                with this section fully and accurately                  early reinstatement;                                  furnish medically necessary items and
                                                discloses the circumstances surrounding                    (vi) Any additional or pending license             services.
                                                the action that formed the basis for the                actions in the same State or in any other
                                                                                                                                                                (a) Circumstance for exclusion. * * *
                                                exclusion to a licensing authority of a                 State;
                                                                                                           (vii) Any ongoing investigations                   *     *    *     *    *
                                                different State or to a different licensing
                                                                                                        involving the individual;                             ■ 16. Section 1001.901 is amended by
                                                authority in the same State and that
                                                                                                           (viii) The reasons the individual is               adding paragraph (c) to read as follows:
                                                licensing authority grants the individual
                                                or entity a new license or has decided                  seeking reinstatement;                                § 1001.901   False or improper claims.
                                                to take no adverse action as to a                          (ix) Whether the individual is seeking,
                                                                                                        or intends to seek, employment in an                  *     *      *    *     *
                                                currently held license, the OIG will                                                                            (c) An exclusion under this section is
                                                consider a request for early                            unlicensed health care position; and
                                                                                                           (x) All the factors set forth in                   neither time barred nor subject to any
                                                reinstatement. The OIG will consider                                                                          statute of limitations period, even when
                                                                                                        1001.3002(b).
                                                the following factors in determining                       (3) Except for § 1001.3002(a)(1)(i), all           the exclusion is based on violations of
                                                whether a request for early                             the provisions of Subpart F                           another statute that may have a
                                                reinstatement under this paragraph                      (§§ 1001.3001 through 1001.3005) apply                specified limitations period.
                                                (c)(1) will be granted:                                 to early reinstatements under this                    ■ 17. Section 1001.951 is amended by
                                                   (i) The circumstances that formed the                section.                                              revising paragraph (b)(2) to read as
                                                basis for the exclusion;                                ■ 13. Section 1001.601 is amended by                  follows:
                                                   (ii) Evidence that the second licensing              revising paragraph (b)(2) to read as
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                authority was aware of the                                                                                    § 1001.951 Fraud and kickback and other
                                                                                                        follows:                                              prohibited activities.
                                                circumstances surrounding the action
                                                that formed the basis for the exclusion;                § 1001.601 Exclusion or suspension under              *     *     *     *    *
                                                   (iii) Whether the individual has                     a Federal or State health care program.                 (b) * * *
                                                demonstrated that he or she has                         *      *      *    *     *                              (2) It will be considered a mitigating
                                                satisfactorily resolved any underlying                     (b) * * *                                          factor if—
                                                problem that caused or contributed to                      (2) If the individual or entity is                   (i) The individual had a documented
                                                the basis for the initial licensing action;             eligible to apply for reinstatement in                mental, emotional, or physical


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00015   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26824                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                condition before or during the                          determining the length of an exclusion                 material is about to be altered or
                                                commission of the prohibited act(s) that                under this section—                                    destroyed, the failure to provide access
                                                reduced the individual’s culpability for                *      *    *     *    *                               to the requested material at the time the
                                                the acts in question; or                                  (4) Any other facts that bear on the                 request is made.
                                                   (ii) The individual’s or entity’s                    nature or seriousness of the conduct;                    Reasonable request means a written
                                                cooperation with Federal or State                       and                                                    request, signed by a designated
                                                officials resulted in the—                              *      *    *     *    *                               representative of the OIG or MFCU and
                                                   (A) Sanctioning of other individuals                 ■ 21. Section 1001.1201 is amended by                  made by a properly identified agent of
                                                or entities, or                                         revising paragraph (a) introductory text,              the OIG or a MFCU during reasonable
                                                   (B) Imposition of a civil money                      republishing paragraph (b) introductory                business hours, where there is
                                                penalty against others.                                 text, revising paragraphs (b)(3) and (4),              information to suggest that the person
                                                ■ 18. Section 1001.1001 is amended by                                                                          has violated statutory or regulatory
                                                                                                        and removing paragraph (b)(5).
                                                revising paragraph (a) introductory text,                 The revisions read as follows:                       requirements under Titles V, XI, XVIII,
                                                (a)(1), and (a)(2) to read as follows:                                                                         XIX, or XX of the Act. The request will
                                                                                                        § 1001.1201 Failure to provide payment                 include a statement of the authority for
                                                § 1001.1001 Exclusion of entities owned or              information.
                                                controlled by a sanctioned person.
                                                                                                                                                               the request, the person’s rights in
                                                                                                           (a) Circumstance for exclusion. The                 responding to the request, the definition
                                                   (a) Circumstance for exclusion. The                  OIG may exclude any individual or                      of ‘‘reasonable request’’ and ‘‘failure to
                                                OIG may exclude an entity:                              entity that furnishes, orders, refers for              grant immediate access’’ under part
                                                   (1) If a person with a relationship
                                                                                                        furnishing, or certifies the need for                  1001, and the effective date, length, and
                                                with such entity—
                                                                                                        items or services for which payment                    scope and effect of the exclusion that
                                                   (i) Has been convicted of a criminal
                                                                                                        may be made under Medicare or any of                   would be imposed for failure to comply
                                                offense as described in sections 1128(a)
                                                                                                        the State health care programs and that:               with the request, and the earliest date
                                                and 1128(b) (1), (2), or (3) of the Act;
                                                   (ii) Has had civil money penalties or                *      *    *     *     *                              that a request for reinstatement would
                                                assessments imposed under section                          (b) Length of exclusion. The following              be considered.
                                                1128A of the Act; or                                    factors will be considered in                          *      *    *     *     *
                                                   (iii) Has been excluded from                         determining the length of an exclusion                 ■ 23. Section 1001.1501 is amended by
                                                participation in Medicare or any of the                 under this section—                                    revising paragraphs (a)(1) and (2) and (b)
                                                State health care programs and                          *      *    *     *     *                              to read as follows:
                                                   (2) Such a person has a direct or                       (3) The amount of the payments at
                                                                                                                                                               § 1001.1501 Default of health education
                                                indirect ownership or control interest in               issue; and                                             loan or scholarship obligations.
                                                the entity, or formerly held an                            (4) Whether the individual or entity
                                                                                                        has a documented history of criminal,                     (a) * * *
                                                ownership or control interest in the                                                                              (1) Except as provided in paragraph
                                                entity, but no longer holds an                          civil, or administrative wrongdoing (The
                                                                                                                                                               (a)(4) of this section, the OIG may
                                                ownership or control interest because of                lack of any prior record is to be
                                                                                                                                                               exclude any individual that the
                                                a transfer of the interest to an immediate              considered neutral).
                                                                                                                                                               administrator of the health education
                                                family member or a member of the                        *      *    *     *     *                              loan, scholarship, or loan repayment
                                                person’s household in anticipation of or                ■ 22. Section 1001.1301 is amended by                  program determines is in default on
                                                following a conviction, assessment of a                 revising paragraphs (a)(1)(iii) and (a)(3)             repayments of scholarship obligations or
                                                CMP, or imposition of an exclusion.                     to read as follows:                                    loans, or the obligations of any loan
                                                *       *     *    *    *                               § 1001.1301       Failure to Grant Immediate           repayment program, in connection with
                                                ■ 19. Section 1001.1051 is amended by                   Access                                                 health professions education made or
                                                revising paragraph (c)(1) to read as                                                                           secured in whole or in part by the
                                                                                                           (a) * * *
                                                follows:                                                   (1) * * *                                           Secretary.
                                                                                                           (iii) The OIG for reviewing records,                   (2) Before imposing an exclusion in
                                                § 1001.1051 Exclusion of individuals with
                                                                                                        documents, and other material or data                  accordance with paragraph (a)(1) of this
                                                ownership or control interest in sanctioned
                                                entities.                                               in any medium (including electronically                section, the OIG must determine that the
                                                                                                        stored information and any tangible                    administrator of the health education
                                                *      *     *     *    *                                                                                      loan, scholarship, or loan repayment
                                                  (c) * * *                                             thing) necessary to the OIG’s statutory
                                                  (1) If the entity has been excluded, the              functions; or                                          program has taken all reasonable
                                                length of the individual’s exclusion will               *       *    *     *      *                            administrative steps to secure
                                                be for the same period as that of the                      (3) For purposes of paragraphs                      repayment of the loans or obligations.
                                                sanctioned entity with which the                        (a)(1)(iii) and (a)(1)(iv) of this section,            When an individual has been offered a
                                                individual has or had the prohibited                    the term–                                              Medicare offset arrangement as required
                                                relationship.                                              Failure to grant immediate access                   by section 1892 of the Act, the OIG will
                                                                                                        means:                                                 find that all reasonable steps have been
                                                *      *     *     *    *                                                                                      taken.
                                                ■ 20. Section 1001.1101 is amended by
                                                                                                           (A) The failure to produce or make
                                                republishing paragraph (b) introductory                 available for inspection and copying the               *      *     *     *     *
                                                text, revising paragraph (b)(4), removing               requested material upon reasonable                        (b) Length of exclusion. The
                                                paragraph (b)(5), and redesignating                     request, or to provide a compelling                    individual will be excluded until the
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                paragraph (b)(6) as paragraph (b)(5).                   reason why they cannot be produced,                    administrator of the health education
                                                  The revision reads as follows:                        within 24 hours of such request, except                loan, scholarship, or loan repayment
                                                                                                        when the OIG or State Medicaid Fraud                   program notifies the OIG that the default
                                                § 1001.1101 Failure to disclose certain                 Control Unit (MFCU) reasonably                         has been cured or that there is no longer
                                                information.                                            believes that the requested material is                an outstanding debt. Upon such notice,
                                                *     *     *     *    *                                about to be altered or destroyed, and                  the OIG will inform the individual of
                                                  (b) Length of exclusion. The following                   (B) When the OIG or MFCU has                        his or her right to apply for
                                                factors will be considered in                           reason to believe that the requested                   reinstatement.


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00016    Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                              26825

                                                ■ 21. Section 1001.1601 is amended by                   providers of services or suppliers in                  section 1128A(i)(5) of the Act) of that
                                                republishing paragraph (b)(1)                           such managed care organizations and                    program.
                                                introductory text, revising paragraphs                  such plans.                                            *      *     *      *     *
                                                (b)(1)(iii) and (iv), and removing                        (b) Definition of ‘‘material.’’ For                  ■ 25. Section 1001.1901 is amended by
                                                paragraph (b)(1)(v).                                    purposes of this section, the term                     revising paragraphs (b), (c) introductory
                                                  The revisions read as follows:                        ‘‘material’’ means having a natural                    text, (c)(1), (c)(2), and (c)(4) to read as
                                                                                                        tendency to influence or be capable of                 follows:
                                                § 1001.1601 Violations of the limitations on            influencing the decision to approve or
                                                physician charges.
                                                                                                        deny the request to participate or enroll              § 1001.1901   Scope and effect of exclusion.
                                                   (b) Length of exclusion. (1) In                      as a provider of services or supplier                  *       *    *     *     *
                                                determining the length of an exclusion                  under a Federal health care program.                      (b) Effect of exclusion on excluded
                                                in accordance with this section, the OIG                  (c) Sources of information. The OIG’s                individuals and entities. (1) Unless and
                                                will consider the following factors—                    determination under paragraph (a) of                   until an individual or entity is
                                                *       *    *     *    *                               this section will be made on the basis                 reinstated into the Medicare, Medicaid,
                                                   (iii) The amount of the charges that                 of information from the following                      and other Federal health care programs
                                                were in excess of the maximum                           sources:                                               in accordance with subpart F of this
                                                allowable charges; and                                    (1) CMS;                                             part, no payment will be made by
                                                   (iv) Whether the physician has a                       (2) Medicaid State agencies;
                                                                                                          (3) Fiscal agents or contractors, or                 Medicare, including Medicare
                                                documented history of criminal, civil, or                                                                      Advantage and Prescription Drug Plans,
                                                administrative wrongdoing (the lack of                  private insurance companies;
                                                                                                          (4) Law enforcement agencies;                        Medicaid, or any other Federal health
                                                any prior record is to be considered                                                                           care program for any item or service
                                                neutral).                                                 (5) State or local licensing or
                                                                                                        certification authorities;                             furnished, on or after the effective date
                                                *       *    *     *    *                                 (6) State or local professional                      specified in the notice—
                                                ■ 25. Section 1001.1701 is amended by                                                                             (i) By an excluded individual or
                                                                                                        societies; or
                                                republishing paragraph (c)(1)                             (7) Any other sources deemed                         entity; or
                                                introductory text, revising paragraphs                  appropriate by the OIG.                                   (ii) At the medical direction or on the
                                                (c)(1)(iv) and (v), and removing                          (d) Length of exclusion. In                          prescription of a physician or an
                                                paragraph (c)(1)(vi).                                   determining the length of an exclusion                 authorized individual who is excluded
                                                   The revisions read as follows:                       imposed in accordance with this                        when the person furnishing such item
                                                § 1001.1701 Billing for services of                     section, the OIG will consider the                     or service knew, or had reason to know,
                                                assistant at surgery during cataract                    following factors—                                     of the exclusion.
                                                operations.                                               (1) What were the actual or potential                   (2) This section applies regardless of
                                                *     *      *   *     *                                repercussions of the false statement,                  whether an individual or entity has
                                                  (c) Length of exclusion. (1) In                       omission, or misrepresentation of a                    obtained a program provider number or
                                                determining the length of an exclusion                  material fact and                                      equivalent, either as an individual or as
                                                in accordance with this section, the OIG                  (2) Whether the individual or entity                 a member of a group, prior to being
                                                will consider the following factors—                    has a documented history of criminal,                  reinstated.
                                                                                                        civil, or administrative wrongdoing.                      (3) An excluded individual or entity
                                                *     *      *   *     *                                ■ 24. Section 1001.1801 is amended by
                                                  (iv) Whether approval for the use of                                                                         may not take assignment of an enrollee’s
                                                                                                        revising paragraphs (a) and (b) and by                 claim on or after the effective date of
                                                an assistant was requested from the QIO                 removing paragraph (g).
                                                or carrier; and                                                                                                exclusion.
                                                                                                          The revisions read as follows:                          (4) An excluded individual or entity
                                                  (v) Whether the physician has a
                                                documented history of criminal, civil, or               § 1001.1801       Waivers of exclusions.               that submits, or causes to be submitted,
                                                administrative wrongdoing (the lack of                    (a) The OIG has the authority to grant               claims for items or services furnished
                                                any prior record is to be considered                    or deny a request from the administrator               during the exclusion period is subject to
                                                neutral).                                               of a Federal health care program (as                   civil money penalty liability under
                                                *     *      *   *     *                                defined in section 1128B(f) of the Act)                section 1128A(a)(1)(D) of the Act and
                                                ■ 26. Section 1001.1751 is added to                     that an exclusion from that program be                 criminal liability under section
                                                subpart C to read as follows:                           waived with respect to an individual or                1128B(a)(3) of the Act and other
                                                                                                        entity, except that no waiver may be                   provisions. In addition, submitting
                                                § 1001.1751 Making false statements or                  granted with respect to an exclusion                   claims, or causing claims to be
                                                misrepresentation of material facts.                    under § 1001.101(b). The request must                  submitted or payments to be made, for
                                                  (a) Circumstance for exclusion. The                   be in writing and from an individual                   items or services furnished, ordered, or
                                                OIG may exclude any individual or                       directly responsible for administering                 prescribed, including administrative
                                                entity that it determines has knowingly                 the Federal health care program.                       and management services or salary, may
                                                made or caused to be made any false                       (b) With respect to exclusions under                 serve as the basis for denying
                                                statement, omission, or                                 § 1001.101(a), (c), or (d), a request from             reinstatement to the programs.
                                                misrepresentation of a material fact in                 a Federal health care program for a                       (c) Exceptions to paragraph (b) of this
                                                any application, agreement, bid, or                     waiver of the exclusion will be                        section. (1) If a Medicare enrollee
                                                contract to participate or enroll as a                  considered only if the Federal health                  submits an otherwise payable claim for
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                provider of services or supplier under a                care program administrator determines                  items or services furnished by an
                                                Federal health care program (as defined                 that:                                                  excluded individual or entity, or under
                                                in section 1128B(f)), including Medicare                  (1) The individual or entity is the sole             the medical direction or on the
                                                Advantage organizations under part C of                 community physician or the sole source                 prescription of an excluded physician or
                                                Medicare, prescription drug plan                        of essential specialized services in a                 authorized individual, after the effective
                                                sponsors under part D of Medicare,                      community; and                                         date of exclusion, CMS, a Medicare
                                                Medicaid managed care organizations,                      (2) The exclusion would impose a                     Advantage Plan, or a Prescription Drug
                                                and entities that apply to participate as               hardship on beneficiaries (as defined in               Plan will pay such claim submitted by


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00017    Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                26826                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                the enrollee and will immediately notify                1001.2005 Notice to State licensing                    any Federal, State, or local government
                                                the enrollee of the exclusion.                          agencies by HHS.                                       that relate to Medicare, Medicaid, and
                                                  (2) CMS, Medicare Advantage Plans,                    *     *    *      *    *                               all other Federal health care programs
                                                and Prescription Drug Plans will not                    ■ 32. Section 1001.2006 is amended by                  have been paid or satisfactory
                                                pay an enrollee for items or services                   revising the section heading to read as                arrangements have been made to fulfill
                                                furnished by an excluded individual or                  follows:                                               obligations;
                                                entity, or under the medical direction or                                                                         (4) Whether CMS has determined that
                                                                                                        1001.2006 Notice to others regarding                   the individual or entity complies with,
                                                on the prescription of an excluded                      exclusion by HHS.
                                                physician or other authorized                                                                                  or has made satisfactory arrangements to
                                                                                                        *     *     *    *    *                                fulfill, all the applicable conditions of
                                                individual, more than 15 days after the
                                                                                                        ■ 33. Section 1001.3001 is amended by                  participation or supplier conditions for
                                                date on the notice to the enrollee.
                                                                                                        revising paragraphs (a)(1) and (2) and                 coverage under the statutes and
                                                *     *     *     *    *                                redesignating paragraphs (a)(3), (a)(4),               regulations;
                                                  (4) CMS will not pay any claims                       and (b) as paragraphs (b), (c), and (d),                  (5) Whether the individual or entity
                                                submitted by a supplier for items or                    respectively.                                          has, during the period of exclusion,
                                                services ordered or prescribed by an                      The revisions read as follows:                       submitted claims, or caused claims to be
                                                excluded provider for dates of service                                                                         submitted or payment to be made by
                                                15 days or more after the notice of the                 § 1001.3001 Timing and method of request
                                                                                                        for reinstatement.                                     any Federal health care program, for
                                                provider’s exclusion was mailed to the                                                                         items or services the excluded party
                                                supplier.                                                  (a)(1) Except as provided in paragraph
                                                                                                                                                               furnished, ordered, or prescribed,
                                                *     *     *     *    *                                (a)(2) of this section or in
                                                                                                                                                               including health care administrative
                                                                                                        § 1001.501(b)(2), § 1001.501(c), or
                                                ■ 29. Section 1001.2001 is amended by                                                                          services. This section applies regardless
                                                                                                        § 1001.601(b)(4) of this part, an
                                                revising paragraphs (a), (b), and (c) to                                                                       of whether an individual or entity has
                                                                                                        excluded individual or entity (other
                                                read as follows:                                                                                               obtained a program provider number or
                                                                                                        than those excluded in accordance with
                                                                                                                                                               equivalent, either as an individual or as
                                                § 1001.2001      Notice of intent to exclude.           §§ 1001.1001 and 1001.1501) may
                                                                                                                                                               a member of a group, prior to being
                                                   (a) Except as provided in paragraph                  submit a written request for
                                                                                                                                                               reinstated; and
                                                (c) of this section, if the OIG intends to              reinstatement to the OIG only after the                   (c) If the OIG determines that the
                                                exclude an individual or entity in                      date specified in the notice of exclusion.             criteria in paragraphs (a)(2) and (3) of
                                                accordance with subpart C or this part,                 Obtaining a program provider number                    this section have been met, an entity
                                                or in accordance with subpart B of this                 or equivalent does not reinstate                       excluded in accordance with
                                                part where the exclusion is for a period                eligibility.                                           § 1001.1001 will be reinstated upon a
                                                                                                           (2) An entity excluded under
                                                exceeding five years, it will send a                                                                           determination by the OIG that the
                                                                                                        § 1001.1001 may apply for reinstatement
                                                written notice of its intent, the basis for                                                                    individual whose conviction, exclusion,
                                                                                                        prior to the date specified in the notice
                                                the proposed exclusion and the                                                                                 or civil money penalty was the basis for
                                                                                                        of exclusion by submitting a written
                                                potential effect of exclusion. Within 30                                                                       the entity’s exclusion—
                                                                                                        request for reinstatement that includes
                                                days of receipt of notice, which can be                                                                        *      *      *    *     *
                                                                                                        documentation demonstrating that the
                                                deemed to be 5 days after the date on                                                                          ■ 35. Section 1001.3005 is amended by
                                                                                                        standards set forth in § 1001.3002(c)
                                                the notice, the individual or entity may                                                                       revising the section heading and
                                                                                                        have been met.
                                                submit documentary evidence and                                                                                paragraph (a) introductory text to read
                                                written argument concerning whether                     *      *     *     *     *                             as follows:
                                                the exclusion is warranted and any                      ■ 34. Section 1001.3002 is amended by
                                                related issues.                                         revising paragraphs (a), (b), and (c)                  § 1001.3005 Withdrawal of exclusion for
                                                                                                        introductory text to read as follows:                  reversed or vacated decisions.
                                                   (b) If the OIG intends to exclude an
                                                individual or entity under the                                                                                   (a) An exclusion will be withdrawn
                                                                                                        § 1001.3002       Basis for reinstatement.
                                                provisions of § 1001.701, § 1001.801, or                                                                       and an individual or entity will be
                                                                                                           (a) The OIG will authorize                          reinstated into Medicare, Medicaid, and
                                                § 1001.1751, in conjunction with the                    reinstatement if it determines that—
                                                submission of documentary evidence                                                                             other Federal health care programs
                                                                                                           (1) The period of exclusion has                     retroactive to the effective date of the
                                                and written argument, an individual or                  expired;
                                                entity may request an opportunity to                                                                           exclusion when such exclusion is based
                                                                                                           (2) There are reasonable assurances                 on—
                                                present oral argument to an OIG official.               that the types of actions that formed the
                                                   (c) Exception. If the OIG intends to                                                                        *     *     *     *     *
                                                                                                        basis for the original exclusion have not
                                                exclude an individual or entity under                   recurred and will not recur; and                       PART 1002—[AMENDED]
                                                the provisions of § 1001.901, § 1001.951,                  (3) There is no additional basis under
                                                § 1001.1301, § 1001.1401, § 1001.1601,                  sections 1128(a) or (b) or 1128A of the                ■ 36. The authority citation for part
                                                or § 1001.1701 of this part, paragraph (a)              Act for continuation of the exclusion.                 1002 is revised to read as follows:
                                                of this section will not apply.                            (b) In making the reinstatement                       Authority: 42 U.S.C. 1302, 1320a–3,
                                                *      *      *    *      *                             determination described in paragraph                   1320a–5, 1320a–7, 1396(a)(4)(A), 1396a(p),
                                                ■ 30. Section 1001.2004 is amended by                   (a) of this section, the OIG will                      1396a(a)(39), 1396a(a)(41), and 1396b(i)(2).
                                                revising the section heading to read as                 consider—                                              ■ 37. Section 1002.1 is revised to read
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                follows:                                                   (1) Conduct of the individual or entity             as follows:
                                                                                                        occurring prior to the date of the notice
                                                1001.2004     Notice to State agencies by               of exclusion, if not known to the OIG at               § 1002.1   Basis and scope.
                                                HHS.                                                    the time of the exclusion;                               (a) Statutory basis. This part
                                                *     *    *      *    *                                   (2) Conduct of the individual or entity             implements sections 1902(a)(4),
                                                ■ 31. Section 1001.2005 is amended by                   after the date of the notice of exclusion;             1902(a)(39), 1902(a)(41), 1902(p),
                                                revising the section heading to read as                    (3) Whether all fines and all debts due             1903(i)(2), 1124, 1126, and 1128 of the
                                                follows:                                                and owing (including overpayments) to                  Act.


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00018    Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM   09MYP2
                                                                            Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules                                               26827

                                                  (1) Under authority of section                        the State Medicaid agency by providers                for any item or service for which the
                                                1902(a)(4) of the Act, this part sets forth             and fiscal agents.                                    State agency is required to deny
                                                methods of administration and                             (b) Part 438, subpart J, of this title sets         payment under paragraph (a) of this
                                                procedures the State agency must follow                 forth payment and exclusion                           section. FFP will be available for items
                                                to exclude a provider from participation                requirements specific to Medicaid                     and services furnished after the
                                                in the State Medicaid program. State-                   managed care organizations.                           excluded individual or entity is
                                                initiated exclusion from Medicaid may                   ■ 40. Newly designated § 1002.3 is                    reinstated in the Medicaid program.
                                                lead to OIG exclusion from all Federal                  amended by revising paragraph (a) to                  ■ 45. The subpart heading for subpart B
                                                health care programs.                                   read as follows:                                      is revised to read as follows:
                                                  (2) Under authority of sections 1124                  § 1002.3   General authority.
                                                and 1126 of the Act, this part requires                                                                       Subpart B—State Exclusion of Certain
                                                                                                           (a) In addition to any other authority             Managed Care Entities
                                                the Medicaid agency to obtain and
                                                                                                        it may have, a State may exclude an
                                                disclose to the OIG certain provider                                                                          ■ 46. Section 1002.203 is amended by
                                                                                                        individual or entity from participation
                                                ownership and control information,                                                                            revising the section heading and
                                                                                                        in the Medicaid program for any reason
                                                along with actions taken on a provider’s                                                                      paragraph (a) to read as follows:
                                                                                                        for which the Secretary could exclude
                                                application to participate in the
                                                                                                        that individual or entity from                        § 1002.203 State exclusion of certain
                                                program.
                                                                                                        participation in Federal health care                  managed care entities.
                                                  (3) Under authority of sections                       programs under sections 1128, 1128A or
                                                1902(a)(41) and 1128 of the Act, this                                                                            (a) The State agency, in order to
                                                                                                        1866(b)(2) of the Act.                                receive FFP, must provide that it will
                                                part requires the State agency to notify
                                                the OIG of sanctions and other actions                  *      *    *     *     *                             exclude from participation any managed
                                                                                                        ■ 41. Newly designated § 1002.4 is                    care organization (as defined in section
                                                the State takes to limit a provider’s
                                                                                                        amended by revising paragraph (c)(1) to               1903(m) of the Act), or entity furnishing
                                                participation in Medicaid.
                                                                                                        read as follows:                                      services under a waiver approved under
                                                  (4) Section 1902(p) of the Act permits
                                                the State to exclude an individual or                   § 1002.4 Disclosure by providers and State            section 1915(b)(1) of the Act, if such
                                                entity from Medicaid for any reason the                 Medicaid agencies.                                    organization or entity—
                                                Secretary can exclude and requires the                                                                           (1) Has a prohibited ownership or
                                                                                                        *      *    *     *    *
                                                State to exclude certain managed care                      (c) * * *                                          control relationship with any individual
                                                entities that could be excluded by the                     (1) The Medicaid agency may refuse                 or entity that could subject the managed
                                                OIG.                                                    to enter into or renew an agreement                   care organization or entity to exclusion
                                                                                                        with a provider if any person who has                 under § 1001.1001 or § 1001.1051 of this
                                                  (5) Sections 1902(a)(39) and 1903(i)(2)
                                                                                                        an ownership or control interest, or who              chapter or
                                                of the Act prohibit State payments to                                                                            (2) Has, directly or indirectly, a
                                                providers and deny FFP in State                         is an agent or managing employee of the
                                                                                                        provider, in the provider has been                    substantial contractual relationship with
                                                expenditures for items or services                                                                            an individual or entity that could be
                                                furnished by an individual or entity that               convicted of a criminal offense related
                                                                                                        to that person’s involvement in any                   excluded under § 1001.1001 or
                                                has been excluded by the OIG from                                                                             § 1001.1051 of this chapter.
                                                participation in Federal health care                    program established under Medicare,
                                                programs.                                               Medicaid, Title V, Title XX, or Title XXI             *      *    *      *     *
                                                                                                        of the Act.                                           ■ 47. The subpart heading for subpart C
                                                  (b) Scope. This part specifies certain
                                                                                                                                                              is revised to read as follows:
                                                bases upon which the State may, or in                   *      *    *     *    *
                                                some cases must, exclude an individual                                                                        Subpart C—Procedures for State-
                                                                                                        § 1002.100    [Redesignated as § 1002.5]
                                                or entity from participation in the                                                                           Initiated Exclusions
                                                Medicaid program and the                                ■ 42. Section 1002.100 is redesignated
                                                administrative procedures the State                     as § 1002.5 in subpart A.                             ■ 48. Section 1002.210 is amended by
                                                must follow to do so. These regulations                 § 1002.211    [Redesignated as § 1002.6]
                                                                                                                                                              revising the section heading to read as
                                                specifically address the authority of                                                                         follows:
                                                                                                        ■ 43. Section 1002.211 is redesignated
                                                State agencies to exclude on their own                  as § 1002.6 in subpart A.                             § 1002.210       General authority.
                                                initiative, regardless of whether the OIG               ■ 44. Newly designated § 1002.6 is
                                                has excluded an individual or entity                                                                          *        *       *      *   *
                                                                                                        revised to read as follows:
                                                under part 1001 of this chapter. In                                                                           § 1002.211       [Removed and Reserved]
                                                addition, this part delineates the States’              § 1002.6   Payment prohibitions.
                                                                                                                                                              ■ 49. Section 1002.211 is removed and
                                                obligation to obtain certain information                   (a) Denial of payment by State                     reserved.
                                                from Medicaid providers and to inform                   agencies. Except as provided for in
                                                the OIG of information received and                     §§ 1001.1901(c)(3), (c)(4), and (c)(5)(i) of          PART 1006—[AMENDED]
                                                actions taken.                                          this chapter, no payment may be made
                                                                                                        by the State agency for any item or                   ■ 50. The authority citation for part
                                                §§ 1002.2 and 1002.3 [Redesignated as                   service furnished on or after the                     1006 is revised to read as follows:
                                                §§ 1002.3 and 1002.4]
                                                                                                        effective date specified in the notice:                 Authority: 42 U.S.C. 405(d), 405(e), 1302,
                                                ■ 38. Sections 1002.2 and 1002.3 are                       (1) by an individual or entity                     1320a–7, and 1320a–7a.
                                                redesignated as § 1002.3 and 1002.4,                    excluded by the OIG or                                ■ 51. Section 1006.1 is amended by
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                                respectively.                                              (2) at the medical direction or on the             revising paragraphs (a) and (b) to read
                                                ■ 39. A new § 1002.2 is added to read                   prescription of a physician or other                  as follows:
                                                as follows:                                             authorized individual who is excluded
                                                                                                        by the OIG when a person furnishing                   § 1006.1       Scope.
                                                § 1002.2   Other applicable regulations.                such item or service knew, or had                       (a) The provisions in this part govern
                                                  (a) Part 455, subpart B, of this title                reason to know, of the exclusion.                     subpoenas issued by the Inspector
                                                sets forth requirements for disclosure of                  (b) Denial of Federal financial                    General, or his or her delegates, in
                                                ownership and control information to                    participation (FFP). FFP is not available             accordance with sections 205(d),


                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00019   Fmt 4701   Sfmt 4702   E:\FR\FM\09MYP2.SGM       09MYP2
                                                26828                       Federal Register / Vol. 79, No. 90 / Friday, May 9, 2014 / Proposed Rules

                                                1128A(j), and 1128(f)(4) of the Act and                 1128A of the Act or under any other                     Dated: January 7, 2014.
                                                require the attendance and testimony of                 section of the Act that incorporates the              Daniel R. Levinson,
                                                witnesses and the production of any                     provisions of sections 1128(f)(4) or                  Inspector General.
                                                other evidence at an investigational                    1128A(j).                                               Approved: January 16, 2014.
                                                inquiry.                                                *     *     *    *     *                              Kathleen Sebelius,
                                                  (b) Such subpoenas may be issued in                                                                         Secretary.
                                                investigations under section 1128 or                                                                          [FR Doc. 2014–10390 Filed 5–8–14; 8:45 am]
                                                                                                                                                              BILLING CODE 4152–01–P
ehiers on DSK2VPTVN1PROD with PROPOSALS2




                                           VerDate Mar<15>2010   14:54 May 08, 2014   Jkt 232001   PO 00000   Frm 00020   Fmt 4701   Sfmt 9990   E:\FR\FM\09MYP2.SGM   09MYP2
